UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
Application for Admission to the Bar
(Please Type or Print)
Pursuant to FRAP 46(a), to qualify for admission you must be a member in good standing of the bar of the U.S. Supreme Court,
another U.S. Court of Appeals, a U.S. District Court, or the highest court of any state. All attorneys must apply for admission and
submit attorney admission fees through PACER. In addition to this application, you must upload in PACER: (1) a certificate of good
standing issued within the previous six months establishing that you are admitted to practice before one of the courts described above,
and (2) a list of all state and federal bars of which you are a member, including state bar numbers, and your status with each bar (e.g.,
active, inactive, retired, etc.). See 11th Cir. R. 46-7. You must have a member of this Court’s bar move for your admission on this
application form, unless you certify by checking the appropriate box that you do not know a current member of this Court’s bar. Upon
approval of your application, you must pay the non-refundable amount of $228.00 (comprised of a $188.00 national fee and a $40.00
Eleventh Circuit fee) via PACER. Failure to pay the fee within 14 days of approval of your application will require that you submit a
new application form.
PERSONAL INFORMATION

Larry Klayman
Date of Birth: 7/20/1951
Phone: 561-558-5336
E-Mail: leklayman@gmail.com
Name:

ADDRESS INFORMATION

Klayman Law Group P.A.
Address 1: 7050 W. Palmetto Park Rd
Office Name:

Address 2:
City:

Boca Raton

State:

FL

Zip:

33433

Answer each question. If any answer is yes, you must upload a statement giving details and relevant documentation.
YES

NO




✔

1.

Have you changed your name or been known by any names or surnames other than the one appearing on this
application?


✔



2a.

Have you been disbarred or suspended from practice by any bar or before any court, department, bureau or
commission of any State or the United States, or have you been admonished, sanctioned, or reprimanded by any of
them pertaining to your conduct or fitness to practice?


✔



2b.

Are any such proceedings or allegations presently pending against you?


✔



3a.

Have you been a party to criminal proceedings?




✔

3b.

Have you been a party to civil proceedings in which allegations of fraud, misrepresentation, or other dishonesty
were made against you?




✔

3c.

Are any proceedings or allegations presently pending against you for any matter specified in question 3a or 3b?

App.0001

Larry Klayman

App.0002

LIST OF ALL BAR MEMBERSHIPS
You must attach a list of all bars of which you are a member, including state bars and state and
federal courts to which you are admitted to practice. The list must also include bar numbers (if
any), the date of admission, and your status with each bar or court (e.g., active, inactive, retired,
etc.). See 11th Cir. R. 46-7. You may use this page to fulfill this requirement.
Failure to complete the sections with an * will result in the rejection of your application.
Name of State or
Federal Bar or Court*

Bar Number
(if any)

Date
Admitted*

Status with Bar or Court*
(active, inactive, retired, etc.)

U.S. Supreme Court

4/25/88

Active

U.S. Court of Appeals
for D.C. Circuit

4/22/88

Active

U.S. Court of Appeals
for Ninth CIrcuit

1/22/00

Active

U.S. Dist. Ct. N. Dist.
of TX

8/9/02

Active

U.S. Dist. Ct. S. Dist
of FL

12/29/77

Active

The Florida Bar

246220

12/7/77

Active

District of Columbia
Bar

334581

12/22/80

Temp. Suspended

1/6/1989

Suspended

The Pennsylvania Bar 54628

3

App.0003

Addendum to Application for Admission
I have been a member continuously in good standing of The Florida Bar since December 7,
1977, when I began the practice of law as an associate with the Miami litigation firm of
Blackwell, Walker, Powers, Flick and Hoehl. Attached is an abbreviated biography of my legal
career, which also reflects my candidacy for the U.S. Senate in Florida in 2003-2004 in the
Republican primary.
During this time period of 44 years, I agreed to a reprimand with The Florida Bar in 2011, and
no finding of dishonesty was made by the bar and the Florida Supreme Court. The issue involved
a fee dispute with the client, Natalia Humm, which was settled, but when the 2008 recession hit I
could not pay the settlement back in the time agreed to, as I faced the possibility of bankruptcy.
To avoid further litigation, I agreed with the bar to settle the matter and move on with my life.
Many years later, I was later suspended for 3 months by a very partisan District of Columbia
Bar, which like nearly everything else in the nation’s capital, is run by individuals who donate
heavily to and support the Democratic Party, and I believe resent my founding and leadership of
two non-profit conservative foundations Judicial Watch, Inc. and Freedom Watch, Inc., which
have sued the Clintons and Barack Obama in a public interest capacity. I have also held
Republicans such as George W. Bush and Dick Cheney to account, but the bar has become a
partisan enterprise in my opinion and the opinion of many others. 1 Exhibit 1. The suspension
occurred from August 12, 2020 to December 10, 2020 and is now concluded. Before this matter
concluded, it went on for twelve years, a duration that based on Florida legal precedent would
not be acceptable in my home state. The District of Columbia Court of Appeals, which later
ratified the 3 month suspension, found that I was fit to continue to practice law. In the Matter of
Larry E. Klayman, 18-BG-0100 (June 11, 2020 Order). In Pennsylvania, where I had been

1

Indeed this is the same District of Columbia Office of Disciplinary Counsel (“ODC”) that
entertained a frivolous bar complaint by leftist law professors, including avowed communist law
professor Michael Tiger, filed against Kellyanne Conway for statements made on television, as
well as recent frivolous complaints again by four leftist former District of Columbia Bar
presidents, as well as former assistant ODC counsel Michael Frisch, against even Attorney
General William Barr. https://www.washingtonpost.com/politics/law-professors-file-misconductcomplaint-against-kellyanne-conway/2017/02/23/442b02c8-f9e3-11e6-bf01
d47f8cf9b643_story.html;https://abovethelaw.com/2020/07/bill-barr-racks-up-yet-another-barcomplaint/.
On the other hand, this partisan ODC refused to investigate a complaint filed by attorney
Ty Clevenger against David Kendall, Hillary Clinton’s attorney that allegedly aided in the
destruction of emails and thus an obstruction of justice pertaining to the Benghazi scandal. These
are just a few examples of their politically based selective prosecutions.
https://personalliberty.com/state-bar-prosecutors-flouting-law-protecting-hillary-clintonlawyers/.

App.0004

administrative suspended for choosing not to do by CLE’s, I am currently serving a reciprocal
90-day suspension in this matter.
The new very partisan Bar Disciplinary Counsel of the District of Columbia Bar then pursued
two other on-going bar proceedings against me, which are in progress. No final decision has
been reached in these matters. In re Larry Klayman, 20-BG-583 (D.C. Ct. App.); In re Larry
Klayman, Board Dkt. #18-BD-070. One of them, the Sataki matter, is eleven years old, again a
time span that would not be countenanced by The Florida Bar. Importantly, The Florida Bar
dismissed the identical complaint filed by the complainant, about 9 years ago, but the Bar
Disciplinary Counsel of the District of Columbia, after six years of doing nothing with a
complaint that had been abandoned, “resurrected” it for partisan purposes, I have argued. The
District of Columbia Court of Appeals has temporarily suspended me in this matter, even though
it is ongoing before them, thereby presuming me guilty until proven innocent. This is a
temporary suspension that is being challenged in federal court. Klayman v. Blackburne-Rigsby et
al, 21-cv-409 (D.D.C.)
As a strong litigator, I have been sanctioned by some judges over the course of my 44 year
career, but not on the basis of dishonesty. My experience caused me to conceive of and found
Judicial Watch, Inc., on July 29, 1994. One such judge, William Keller, of the U.S. District
Court for the Central District of California, had made anti-Asian, anti-gay and anti-Semitic
remarks during the trial and he sanctioned me after I asked him to disqualify himself.
Finally, many years ago I was a party to a criminal case brought by my estranged ex-wife for
alleged on payment of child support which I withheld when she vindictively would not allow me
visitation with my minor children. As we were divorced in Virginia, I had withheld child support
to try to create and incentive for my ex-wife allowing me to see my children, which she had
denied me in violation of the marital settlement agreement. Citing the precedent in Virginia of
Hartman v. Hartman, 53 S.E.2d 407 (W. Va. 1949), I felt I have a legal right to withhold child
support, particularly since I was then paying $7,000 in alimony and my ex-wife’s new husband,
who lived in a house which was paid for with our divorce proceeds and was free and clear,
earned over $100,000 per year. Thus, the children were not denied sustenance. This indictment
was dismissed.
In sum, I have had a long legal career and one that many believe has been successful, particularly
in my pubic interest capacity and as a private legal practitioner. I am attaching an affidavit which
I filed in a case against Roger Stone, who defamed my client, Dr. Jerome Corsi and me,
evidencing this success, as well as a few articles about my honesty and integrity. Exhibit 1.
I am representing Dr. Corsi in an appeal before this Court, so I respectfully request that this
application be processed, considered and approved expeditiously if possible. See Corsi v.
Newsmax Media Inc., et al, 21- 10480.
If this honorable Court has any questions, please feel free to contact me before deciding this
application. If it is not granted from the written submissions, then I respectfully ask for a hearing.

App.0005

Finally, my application is being sponsored by the Honorable Bob Barr, a former U.S. Attorney of
the Northern District of Georgia as well as a former congressman, now in private practice in
Atlanta, as well as the head of the non-profit foundation Liberty Guard which, like Freedom
Watch and Judicial Watch both of which I founded, promotes ethics in government and the legal
profession. Mr. Barr can attest to my honesty and integrity as we have together have worked on
numerous legal and other matters over the years.

App.0006

Larry Klayman, founder of Judicial Watch and
Freedom Watch, is known for his strong
public interest advocacy in furtherance of
ethics in government and individual freedoms
and liberties. During his tenure
at Judicial Watch, he obtained
a court ruling that Bill Clinton
committed a crime, the first
lawyer ever to have done so
against an American president.
Larry became so famous for
fighting corruption in the
government and the legal
profession that the NBC hit
drama series "West Wing"
created a character after him:
Harry Klaypool of Freedom
Watch. His character was
played by actor John Diehl.
In 2004, Larry ran for the U.S.
Senate as a Republican in Florida's primary.
After the race ended, he founded Freedom
Watch.
Larry graduated from Duke University with
honors in political science and French
literature. Later, he received a law degree from
Emory University. During the administration
of President Ronald Reagan, Larry was a
Justice Department prosecutor and was on the
trial team that succeeded in breaking up the
telephone monopoly of AT&T, thereby
creating competition in the
telecommunications industry.
Between Duke and Emory, Larry worked for
U.S. Senator Richard Schweiker (R-Pa.)
during the Watergate era. He has also studied
abroad and was a stagiaire for the Commission

of the European Union in its Competition
Directorate in Brussels, Belgium. During law
school, Larry also worked for the U.S.
International Trade Commission in
Washington, D.C.
Larry speaks four languages—
English, French, Italian, and
Spanish—and is an
international lawyer, among his
many areas of legal expertise
and practice.
The author of two books, Fatal
Neglect and Whores: Why and
How I Came to Fight the
Establishment, Larry has a
third book in the works dealing
with the breakdown of our
political and legal systems. His
current book, Whores, is on
now sale at WND.com, Amazon.com,
BarnesandNoble.com, Borders.com, and all
major stores and booksellers.
Larry is a frequent commentator on television
and radio, as well as a weekly columnist, on
Friday, for WND.com. He also writes a regular
blog for Newsmax called "Klayman's Court."
Larry has been credited as being the
inspiration for the Tea Party movement. (See
"Larry Klayman - The One Man TEA Party,"
by Dr. Richard Swier, http://fwusa.org/KFA)

Support the work of
Freedom Watch at
www.FreedomWatchUSA.org
App.0007

3/11/2021

Larry Klayman for U.S. Senate

COMMENTARY

Larry Klayman for U.S. Senate
By Joseph Farah
Published August 26, 2004 at 1:00am

People sometimes ask me who my heroes are. After all, I'd be hard-pressed
to name any contemporary politicians I trust or look to for leadership and
courage.
There is such a man. He's not a politician. But he is running for office – the
U.S. Senate – from the state of Florida.
His name is Larry Klayman and he founded the organization known as
Judicial Watch.
Larry Klayman is my hero because he has integrity – enough to prevent him
from blind loyalty to party or ideology and keep him focused on principle.
Some people have asked me if Larry is crazy, if he's a zealot, or if he has all of
his oars in the water. If you don't know Larry personally, it might be easy to
confuse him with a loose cannon. That's because he is fearless and relentless
in the pursuit of justice. That's a rare commodity today in America. It wasn't
always like that. There were other men like Larry early in American history.
Their names were Washington, Jefferson, Madison and Henry. They don't
make 'em like that any more. At least not many. Larry is an exception.
That's why I am doing something very unusual for me today – I am formally
and personally endorsing Larry Klayman in his uphill bid for the U.S.
Senate. The primary election is next Tuesday and you still have a chance to
send him a contribution or at least hold him up in your prayers in the next
few days.
Why do I think it's so important to elect Larry Klayman to the U.S. Senate?
Do Not Sell My Info
https://www.wnd.com/2004/08/26268/

App.0008

1/4

3/11/2021

Larry Klayman for U.S. Senate

Because Larry Klayman is an anti-establishment candidate. He is in
nobody's pocket. He's a man of character and principle. We need men like
that in the U.S. Senate and elsewhere in government.
The Senate will be a stronger institution with his admission, and America
will be a better nation with him in the Senate.
To be honest with you, I never thought I would see the day that Larry
Klayman was actually a serious candidate for the U.S. Senate. We all have an
opportunity to make a real difference, a real impact on American
government by getting him elected.
Larry Klayman is not running for the U.S. Senate because he wants to
participate in a debating society. He's running because he wants to get
America back on track with its constitutional form of government. One of
the cornerstones of his campaign is a promise to fight to get the United
States out of the United Nations.
When was the last time you heard of a Senate campaign built around that
promise?
But that's my friend Larry Klayman. He doesn't listen to polls. He listens to
his heart and his mind. And he listens to the Constitution and the law of the
land.
Larry Klayman is an American hero. I don't make that statement lightly. I
don't make that statement frequently. But I make it without any reservations
about Larry Klayman.
Don't worry about Larry Klayman backing down in the face of the pressures
and temptations of the Beltway. Trust me. They will only serve to embolden
him. Larry Klayman will do what is right – no matter who is involved.
Klayman is a guy who never shrinks from his standards of ethics and
morality. He's a man who looks to no one but God for guidance and
direction. He's just the kind of person we need in times like this. Do Not Sell My Info
https://www.wnd.com/2004/08/26268/

App.0009

2/4

3/11/2021

Larry Klayman for U.S. Senate

That's why I am standing behind Larry Klayman for the U.S. Senate.

Submit a Correction

Joseph Farah
Summary

Recent Posts

Contact

Joseph Farah is founder, editor and chief executive officer of WND. He is the author or coauthor of 13 books that have sold more than 5 million copies, including his latest, "The Gospel
in Every Book of the Old Testament." Before launching WND as the first independent online
news outlet in 1997, he served as editor in chief of major market dailies including the
legendary Sacramento Union.
 @JosephFarah
Do Not Sell My Info
https://www.wnd.com/2004/08/26268/

App.0010

3/4

3/11/2021

'Free speech' advocate works to silence Larry Klayman

COMMENTARY

THE LEFT

'Free speech' advocate works to silence Larry
Klayman
Exclusive: Jack Cashill exposes radical ideology of lawyer pushing
punishment
By Jack Cashill
Published January 1, 2020 at 5:38pm

In July of 2019, a hearing committee of the District of Columbia Bar Board
of Professional Responsibility made a recommendation that Judicial Watch
founder Larry Klayman be suspended, a recommendation now under appeal,
from the practice of law in the district for 33 months.
The three-person committee strangely and inexplicably included only two
attorneys, both of whom are of the left, and one of whom, Michael Tigar, is
proudly far left.
How far left? Consider the following review on the jacket of Tigar's most
recent book: "'An incisive, unsparing, creative, brilliant critique of capitalist
law and its dire human consequences.' – BERNARDINE DOHRN, co-editor
with Bill Ayers, Race Discourse: Against White Supremacy."
In the book, "Mythologies of State and Monopoly Power," Tigar emphasizes
the Marxist notion that "the law is not what is says but what it does." Not
liking the "dire human consequences" of the law as it exists, Tigar is not
above twisting the law to his own ends.
Klayman suspects that Tigar, something of a superstar in Marxist circles,
was recruited by the committee chairman, Anthony Fitch to sit on the
committee with him. The two appeared chummy throughout the proceeding,
and Fitch seemed downright deferential.
Do Not Sell My Info
https://www.wnd.com/2020/01/free-speech-advocate-works-silence-larry-klayman/

App.0011

1/5

3/11/2021

'Free speech' advocate works to silence Larry Klayman

Throughout the proceeding, Tigar could barely conceal his disdain for the
conservative, pro-capitalist, pro-Israel, pro-Trump activist Klayman.
In testifying as to why he founded Judicial Watch, Klayman explained his
objections to the fact that federal judges were often chosen on the basis of
political contributions by their law firms, labor unions or corporations.
As a result, said Klayman, "the best and the brightest" do not always make
their way onto the bench. At this, Tigar grew visibly angry and shot back that
his son, Jon Tigar, also a graduate of Berkeley Law School, was a federal
judge.
President Barack Obama had appointed young Tigar to the federal bench in
San Francisco. Klayman said he did not mean to impugn Tigar's son, but
Judge Tigar deserved impugning. Tigar is the same federal judge who willynilly enjoined President Trump's asylum policy for illegal immigrants.
In its article on Klayman's recommended suspension, the Washington Post
observed, that the "conservative" Klayman "is a notably combative litigant
whose no-holds-barred tactics and robust use of the Freedom of Information
Act have made him a dreaded – and sometimes loathed – inquisitor."
The Post also noted that Klayman writes for "WorldNetDaily, a right-wing
news aggregator site." As to the left-wing politics of Fitch and Tigar, the Post
predictably made no mention at all and failed to take seriously Klayman's
claim that "It was a very politicized hearing committee."
The case itself has little to do with politics. It involves Klayman's pro-bono
defense of a female Persian broadcaster at Voice of America. When she did
not get the result she wanted, she turned on Klayman.
Both the Florida and Pennsylvania Bars dismissed identical complaints six
years earlier. Following Trump's election, the head of the D.C. Bar
Disciplinary Counsel resurrected the complaint six years after the woman
Do Not Sell My Info
had abandoned it.
https://www.wnd.com/2020/01/free-speech-advocate-works-silence-larry-klayman/

App.0012

2/5

3/11/2021

'Free speech' advocate works to silence Larry Klayman

Klayman believes that it was his high-profile legal advocacy on Trump's
behalf that awakened legal radicals to the political potential of what is now a
10-year-old case.
"For Tigar, I am a conservative scalp," says Klayman, who is still able to
practice law in D.C. during the appeal, "and one that he obviously harbors an
animus toward, particularly given my support of Trump."

Michael Tigar with Ramon Castro, the
oldest of the Castro brothers, in 1978.

The 78-year-old Tigar has been an unapologetic disciple of the hard left from
his student days. In his memoir, he boasts of his fond feelings for the
brothers Castro and his attendance at the notorious Soviet-sponsored World
Festival of Youth and Students in Helsinki in 1962.
Tigar's radicalism alarmed even liberal Supreme Court Chief Justice Earl
Warren. According to Tigar, in 1965 Warren ordered Justice William
Brennan to fire Tigar, then clerking for Brennan, and Brennan did just that.
Tigar has not mellowed as he has grown older. In fact, he has turned as the
larger progressive movement has from defending free speech to suppressing
it.
https://www.wnd.com/2020/01/free-speech-advocate-works-silence-larry-klayman/

Do Not Sell My Info

App.0013

3/5

3/11/2021

'Free speech' advocate works to silence Larry Klayman

"Of all the remarkable developments of the past decade," argues British
author Frank Furedi, "none has been more sinister than the West's gradual
surrender of mankind's most important values: the twin ideals of freedom of
speech and expression."
In Washington, that "surrender" has been imposed almost exclusively on the
political right. Enforcing it are attorneys like Tigar and Fitch, the Democrats
in Congress, federal judges of the Jon Tigar mold, and the intel agencies, all
with the indispensable support of an increasingly leftist media.
The same Michael Tigar who supported the free speech movement while a
law student at Berkeley in the 1960s is now working actively to silence Larry
Klayman. It is hard to interpret Tigar's behavior otherwise.

Submit a Correction

Do Not Sell My Info
https://www.wnd.com/2020/01/free-speech-advocate-works-silence-larry-klayman/

App.0014

4/5

3/11/2021

'Free speech' advocate works to silence Larry Klayman

Jack Cashill
Summary

Recent Posts

Contact

Jack Cashill has a Ph.D. from Purdue University in American studies. His lastest book is
"Unmasking Obama."

Do Not Sell My Info
https://www.wnd.com/2020/01/free-speech-advocate-works-silence-larry-klayman/

App.0015

5/5

3/11/2021

Larry Klayman for U.S. Senate

Do Not Sell My Info
https://www.wnd.com/2004/08/26268/

App.0016

4/4

3/11/2021

Larry Klayman - The One Man TEA Party

FREEDOMWATCH

JOIN OUR FIGHT AT WWW.FWUSA.ORG

LARRY KLAYMAN - THE ONE MAN TEA PARTY
By Dr. Richard Swier (Scribe)
RedCounty.com
July 31, 2010
Long before there was a TEA Party, Glenn Beck 912 movement, 13 Patriots and thousands of others,
there was Larry Klayman. Larry believes it is more important to be virtuous than be liked.
Larry believes there is an ultimate right and wrong.
Some of you may not know Larry Klayman but you should. If you believe in the Constitution of the
United States and that the Executive, Legislative and Judicial branches of our federal government are
corrupt to the core then you need to read Larry's book, WHORES: Why and How I Came to Fight the
Establishment.
If you see our courts legislating from the bench rather than enforcing the law as in Arizona then you
will love Larry Klayman. If you love politics and want to understand what really happens behind the
scenes get his book. I just nished reading WHORES and could not put it down. It is a mosaic of both
the man and his struggles against an out of control government bent on aggrandizing itself at the
expense of the people and the law. It is about corruption on the part of both parties writ large. I found
it particularly interesting because of Larry's insights into Florida politics. You see Larry ran for the
very same U.S. Senate seat Marco Rubio is seeking. Larry ran against, among others, Bill McCollum
and Mel Martinez. If you want to learn more about Florida politics and political insiders, read this
book.
Larry is the founder of Judicial Watch and Freedom Watch USA. Freedom Watch USA "is the only
group that speaks through actions, rather than just words." When reading his book I found it a
fascinating personal and professional journey that re ects the work of a real patriot. Larry has won
my patriot award for being a thorn in the side of Iran, Hugo Chavez, Bill and Hillary Clinton, Dick
Cheney, George W. Bush and Barack Obama. Not a bad record if I say so myself.
I really felt a symbiotic relationship with Larry as I read his story. When you speak truth to power you
are always attacked. The progressive model is identify the target, marginalize it and then demonize
it. That is the cross that Larry, TEA Party members and others who are like minded bear today.
Larry was ghting the establishment since the early 1990s and he continues to do so even today with
the ling of a lawsuit against Elena Kagan, President Obama's nominee for the U.S. Supreme Court.
According to the WorldNetDaily.com column, Papers prepped to disbar Elena Kagan:

https://www.freedomwatchusa.org/larry-klayman-the-one-man-tea-party

App.0017

1/2

3/11/2021

Larry Klayman - The One Man TEA Party

One of Washington, D.C.'s most feared and fearless corruption watchers has told WND he
intends to le an ethics complaint to have Supreme Court nominee Elena Kagan disbarred from
practicing before the court she aspires to join – and possibly subjected to criminal prosecution
– for her role in an escalating controversy over partial-birth abortion.
As WND reported, dozens of pro-life organizations are already asking the Senate to investigate
Kagan's 1997 amendment to an American College of Obstetricians and Gynecologists report,
which was then used by the Supreme Court as justi cation for overturning Nebraska's partialbirth abortion ban in 2000.
In her con rmation hearings, Kagan defended the amendment, saying, "My only dealings with
(the College) were about talking with them about how to ensure that their statement expressed
their views."
Several analyses have concluded, however, that Kagan's amendment dramatically changed the
meaning of the organization statement, and court records show the statement was passed off
on the Supreme Court as o cial scienti c opinion, even though the organization's panel of
scientists never approved Kagan's wording.
Klayman told WND he believes Kagan's behind-the-scenes work constitutes "conspiracy to
defraud the Supreme Court," and he intends to take the evidence that has been compiled by the
pro-life groups to le a complaint before the clerk's o ce of the U.S. Supreme Court, seeking to
have Kagan disbarred as a practicing lawyer infront of the Supreme Court.
So the battle goes on for Larry, you and me. I hope you will read Larry's book and make it a point to
learn more about the great work he is doing to stop corruption in our courts, at the White House and
in Congress. Larry has been a one man TEA Party, now it is time for us to join with him as we
together ght in the same cause – a grass roots revolution to save the Republic.
http://www.redcounty.com/content/larry-klayman-one-man-tea-party

YOUR HELP IS URGENTLY NEEDED!
Support our cause and join our ght!
Go to www.freedomwatchusa.org/donate
Or call 844 FW ETHIC to contribute to Freedom
Watch now

https://www.freedomwatchusa.org/larry-klayman-the-one-man-tea-party

App.0018

2/2

Klayman

...his idea of fun is trying to kick
down a door some public oﬃcial
has marked secret...Larry Klayman
is himself a conservative, but
there’s nothing partisan about
his indignation.
©1998, The Washington Post. Photography by Larry Morris. Reprinted with permission.

WHY AND HOW I CAME
TO FIGHT THE ESTABLISHMENT

—Bill Moyers, “NOW” PBS

Larry…I appreciate your own maverick—if we can still use that
word!—thinking and stands.
—Frank Rich, columnist for THE NEW YORK TIMES

Larry Klayman

That Time magazine has yet to name Larry Klayman “Man of the
Year” is a failure of Time, not Klayman’s. The work he and Judicial
Watch did on the Brown case is stunning.
Larry Klayman is my hero because he has integrity—enough to
prevent him from blind loyalty to party or ideology...That’s because
he is fearless and relentless in the pursuit of justice…There were
other men like Larry early in American history. Their names were
Washington, Jeﬀerson, Madison and Henry.
—Joseph Farah, WorldNetDaily.com

…through his challenge of secrecy rules, Larry Klayman has become a
force in Washington.
Louis jacobson, NATIONAL JOURNAL

Nobody ever accused Larry
Klayman of thinking small,
but his latest suit may be
outsized by even his standards.
The former head of conservative
watchdog Judicial Watch who
now runs Freedom Watch has
ﬁled a $10 trillion class action
against Iran at the U.S. District
Court for the District of Columbia.
THE NATIONAL LAW JOURNAL

$26.95

Larry Klayman believes in always standing
up to the bullies. As founder of Judicial
Watch and Freedom Watch, he has been a
thorn in the side of the abusers of power and
privilege in government and the media. To
some he’s an unwavering champion of justice.
To others he’s a rabid watchdog who barks
at Democrats and Republicans alike if they
make one false move. Now in WHORES
he tells of his time in the judicial trenches.
With edgy prose and biting wit, he describes
his legal battles with President Clinton
and Hillary Clinton (over Chinagate and
Filegate), with Vice President Cheney (over
his secret energy task force), and with the
Bush administration over illegal wiretapping
of American citizens.
His portraits of the likes of Janet Reno,
Fred Thompson, Senators John McCain and
Arlen Specter, Federal Judge Denny Chin
(who recently presided over the Madoﬀ
trial) and Clinton insiders who have come
back to power in the Obama administration
reveal not always ﬂattering sides of their wellcultivated images. Klayman also has choice
words to say about media ﬁgures such as
Bill O’Reilly, Sean Hannity, Newt Gingrich
and Karl Rove, and he accuses media mogul
Rupert Murdoch of sandbagging the original
publication of WHORES by HarperCollins
because of the book’s negative portrait of
Roger Ailes and Fox News.

—Jack Cashill, author of RON BROWN’S BODY

WHY AND HOW I CAME
TO FIGHT THE ESTABLISHMENT

Larry Klayman, Esq., founder and former
chairman of the successful non-proﬁt
foundation Judicial Watch, has dedicated
his career to ﬁghting against injustice and
restoring ethics to the legal profession and
government. He was born and raised in
Philadelphia, graduated with honors in
political science and French literature from
Duke University, and later received a law
degree from Emory University. He is the
only lawyer ever to have obtained a court
ruling that a U.S. president committed a
crime, which occurred during his tenure at
Judicial Watch. He became so well known
that NBC’s hit drama series “The West
Wing” created a character inspired by him,
named Harry Klaypool of Freedom Watch.
In 2003, Mr. Klayman left Judicial Watch
to run for the U.S. Senate. After his Senate
race, he established Freedom Watch. As
head of that organization, he now divides
his time between Miami, Los Angeles and
Washington, D.C.

Larry Klayman is a prickly troublemaker uncongenial to party and ideological establishment.
Robert Novak, columnist

L ARRY KLAYMAN

FOUNDER

OF

JUDICIAL WATCH

AND

Above all, WHORES is an impassioned
plea for reform of our judicial system (with
provocative suggestions on how to do it),
so that the vision of our founding fathers,
as enshrined in the Constitution—of a
government by the people for the people—
can become a reality once again.

FREEDOM WATCH
App.0019

Advance Praise for
It Takes a Revolution
“Larry Klayman is a fearless advocate who defeated special counsel
Mueller’s ‘deep state’ attempt to have me testify against President Trump
by threatening me with prosecution if I did not lie under oath. I am
eternally grateful to him! He is a true champion of justice!”
—Dr. Jerome Corsi, New York Times Bestselling Author
“I have known Larry Klayman for many years as a friend and as my lawyer.
He’s a straight shooter and a patriot. We need more people like Larry in
the legal profession.”
—Sheriff Joe Arpaio
“Larry Klayman is a uniquely public-spirited lawyer. He has never lost
sight of the fact that the responsible activity of individual citizens, seriously seeking to exercise their God-endowed rights, is the indispensable
energy source for all our institutions of self-government.”
—Ambassador Alan L. Keyes, Former UN
Ambassador and Presidential Candidate
“Larry Klayman is my hero because he has integrity—enough to prevent
him from blind loyalty to party or ideology…That’s because he is fearless
and relentless in the pursuit of justice… There were other men like Larry
early in American history. Their names were Washington, Jefferson, Madison, and Henry.”
—Joseph Farah, CEO, www.wnd.com
“That Time magazine has yet to name Larry Klayman ‘Man of the Year’ is
a failure of Time, not Klayman’s.”
—Jack Cashill, Bestselling Author of Ron Brown’s Body

App.0020

“Larry Klayman stood in the stead for my family and me under very
trying circumstances. He is persistent, loyal, and a great believer in the
Constitution, as my sons and I are as well. I respect his wisdom and
strength and cherish his friendship.”
—Cliven Bundy, Nevada Rancher
“While others talk of corruption and injustice in our federal courts, Larry
Klayman is a man who has done something about it. As founder of Judicial Watch and Freedom Watch, Larry Klayman became a household
name to those of us who want to stop the runaway power of federal judges
and restore honesty and integrity to our federal court system. Echoing
the sentiments of our Founding Fathers like Thomas Jefferson and James
Madison, Larry Klayman has fought for a return to the principles and
foundation of our Constitutional Republic wherein people are the source
of all power. With over forty years of experience in the practice of law,
Larry Klayman has represented defendants across America in defense of
their right to ‘life, liberty, and the pursuit of happiness.’ Larry is a valiant
warrior for truth and justice, and a man I am proud to call my friend. I
hope that you will enjoy his noble work, It Takes a Revolution: Forget the
Scandal Industry!”
—Chief Justice Roy Moore
“Klayman’s work It Takes a Revolution: Forget the Scandal Industry! is brilliant, however unorthodox. But Larry is always right!”
—Ben Stein, Lawyer, Actor, Writer
“As the father of Navy SEAL Ty Woods, who was killed at Benghazi, I
highly recommend this book. Just as Ty was a warrior as a Navy SEAL,
as a fellow lawyer and as his friend I can attest to Larry being a warrior in
the courtroom.”
—Charles Woods, Father of Navy SEAL Ty Woods
“I admire Larry, because he is first and foremost a patriot. He not only
believes in the words of the Constitution, he practices those words in all
of his endeavors. He was there when I needed him.”

App.0021

—Laura Luhn, Sexual Abuse Victim of Roger Ailes
“Larry Klayman is one of the most principled and intellectual minds in
the world of litigation. He believes in fighting for justice at all costs to
protect our constitutional freedoms! I am honored to be able to call him a
friend and mentor. God brings people into your life for different reasons. I
believe that God connected us because he wanted me to have a big brother
to encourage me to maximize my potential and guide me in the right
direction. Thank you, Larry!”
—Sergeant Demetrick Pennie, President
of the Dallas Fallen Officer Foundation
“Larry Klayman was the only attorney who had the guts to stand beside
us and go against the government to get answers when our son, Michael,
was killed in Afghanistan aboard Extortion 17 on 08/06/2011. Larry is
a bulldog in the courtroom! He helped us win against the NSA, the first
time in American history!”
—Charles Strange, Gold Star Father
of PO1 Michael Strange (DEVGRU)

App.0022

App.0023

United States Court of Appeals
Eleventh Circuit

56 Forsyth Street, N.W.
Atlanta, Georgia 30303
404-335-6203
David J. Smith
Clerk of Court

www.ca11.uscourts.gov

Amy C. Nerenberg
Chief Deputy Clerk

March 15, 2021

VIA EMAIL
Larry Klayman
7050 W. Palmetto Park Rd.
Boca Raton, FL 33433
Email: leklayman@gmail.com
Re: Application for Admission to the Eleventh Circuit Bar
Dear Mr. Klayman:
With respect to the affirmative responses in your Application for Admission to the
Eleventh Circuit Bar, please provide the following material within fourteen (14) days of the date
of this letter:
•

a copy of the 2011 reprimand issued by the Florida Bar;

•

a copy of the 2020 suspension issued by the District of Columbia Bar;

•

information and/or documentation pertaining to the two matters against you pending with
the District of Columbia Bar.

You may email the information to me at christian_kennerly@ca11.uscourts.gov. Upon
receipt of this information, the Court will consider your application.
Sincerely,
DAVID J. SMITH, Clerk of Court
By: /s/ Christian Kennerly
Deputy Clerk

App.0024

United States Court of Appeals
Eleventh Circuit

56 Forsyth Street, N.W.
Atlanta, Georgia 30303
404-335-6100
David J. Smith
Clerk of Court

www.ca11.uscourts.gov

Amy C. Nerenberg
Chief Deputy Clerk

March 18, 2021

VIA EMAIL
CONFIDENTIAL
Larry Klayman
7050 W. Palmetto Park Rd.
Boca Raton, FL 33433
Email: leklayman@gmail.com
Re: Application for Admission to the Eleventh Circuit Bar
Dear Mr. Klayman:
The Court has instructed me to inform you that your application for admission to the bar
has been denied because you checked boxes 2a, 2b, and 3a “yes” on the application form, and
under the circumstances, the Court determined that you should not be admitted to the bar at this
time. You may reapply for admission after all the pending disciplinary matters have concluded
and you are in good standing with all courts and bars of which you are a member.
Please note that the Court has no procedures for appeal or reconsideration of the denial of
an application for admission, and the Court will not accept for filing or review any additional
materials seeking reconsideration.
Sincerely,
/s/ David J. Smith
Clerk of Court

App.0025

IN THE DISTRICT OF COLUMBIA COURT OF APPEALS
_______________________________
In the Matter of:
LARRY E. KLAYMAN, ESQ.
No. 20-BG-583
Board Docket No: 17-BD-063
BDN: 2011-D028

Respondent.
A Member of the Bar of the District of
Columbia Court of Appeals
(Bar Registration No. 334581)

INITIAL BRIEF OF RESPONDENT LARRY KLAYMAN
__________________________________________________________________
Dated: February 8, 2021

Respectfully submitted,
/s/ Melissa Isaak________
Melissa Isaak, Esq.
2815-B Zelda Road
Montgomery, AL 36106
Tel: 334-262-8200
Melissa@protectingmen.com
Counsel for Respondent
/s/ Larry Klayman________
Larry Klayman
7050 W. Palmetto Park Road
Boca Raton, FL, 33433
Tel: 561-558-5336
leklayman@gmail.com
Co-Counsel Pro Se
TABLE OF CONTENTS
1

App.0026

STATEMENT OF ISSUES ...................................................................................... 1
STATEMENT OF THE CASE ................................................................................. 1
STATEMENT OF UNDERLYING FACTS OF THE CASE IN CHIEF................. 8
SUMMARY OF THE ARGUMENT ...................................................................... 20
THE LAW ............................................................................................................... 20
The Temporary Suspension Order Must Be Vacated Immediately ............. 22
Numerous Due Process Violations, Including Laches, Mandate
Immediate Dismissal of the Charges Against Mr. Klayman ........................ 24
There Was No Basis, Much Less Clear and Convincing Evidence, for the
Finding that Mr. Klayman Had Committed Any Ethical Violation ............. 28
“Emotional Interest” is Not An Ethical Violation .............................. 28
Mr. Klayman Did Not Fail to Abide By Ms. Sataki’s Decisions
Concerning the Objectives of Representation. ................................... 33
Mr. Klayman Did Not Fail to Communicate With Ms. Sataki. .......... 42
Mr. Klayman Did Not Disclose Any Client Secrets ........................... 44
Mr. Klayman Did Not Fail to Withdraw from Representation ........... 46
Ms. Sataki’s Lack of Credibility Must Be Addressed ........................ 47
The Hearing Committee and Board Exhibited Extreme Bias and
Prejudice Towards Mr. Klayman, Which Must be Remedied ............ 52
The Board’s Report Evidences the Fact that it Did Not Take the Time to
Review the Record ........................................................................................ 57
CONCLUSION ...................................................................................................... 63

TABLE OF AUTHORITIES

2

App.0027

Coffin v. United States, 156 U.S. 432 (1895) ......................................................... 22
Hayes v. Alabama State Bar; 719 So 2d 787 (Ala. 1998) ...................................... 27
In re Grigsby, 815 N.W.2d 836 (Minn. 2012) ....................................................... 27
In Matter of Joseph, 60 V.I. 540 (V.I. Feb. 11, 2014) ............................................ 27
In re Vohra, 68 A. 3d 766 (D.C. 2013) ................................................................... 28
The Florida Bar v. Rubin, 362 So.2d 12 (Fla. Sup. Ct. l 1978) ............................. 27
The Florida Bar v. Walter, 784 So.2d 1085 (Fla. Sup. Ct. 2001) ........................... 27

3

App.0028

STATEMENT OF ISSUES
1.

Should the District of Columbia Court of Appeals (“DCCA”) not

impose discipline on Respondent Larry Klayman (“Mr. Klayman”) in this
disciplinary proceeding?
2.

Should the DCCA withdraw interim suspension on Mr. Klayman

while this matter is decided, as it is in contravention of Mr. Klayman’s due
process, equal protection, Sixth Amendment right to counsel and other rights?
STATEMENT OF THE CASE
From the very outset of this proceeding coming before the DCCA, it more
than appears that this Court has prejudged this matter, which has severely
prejudiced and harmed not just Mr. Klayman but also his clients. This prejudgment
is manifested by prima facie violations of many of Mr. Klayman’s rights, including
equal protection, due process, and Sixth Amendment right to counsel of choice
during the temporary suspension phase of this proceeding.
First, even before this proceeding reached this Court, Mr. Klayman’s due
process, equal protection and other rights were ignored and violated. This is a very
old – eleven (11) years to be exact -- disciplinary proceeding with a very
voluminous record, which the Board on Professional Responsibility (the “Board”)
clearly never reviewed, given the numerous material errors contained in its Report
and Recommendation (the “Board Report”). These material errors simply could not

1

App.0029

have been possibly made had the record even been somewhat reviewed. This
forced Mr. Klayman to file an “Emergency Motion for Reconsideration of Order of
the Chair of the Board on Professional Responsibility and Motion to Stay
Implementation of the Report and Recommendation of the Board of Professional
Responsibility of October 2, 2020, Until the Board Conduct a Thorough and Bona
Fide Review of the Entire Record in This Proceeding and Request for Internal
Reviews” (the “Emergency Motion”) as well as related supplements and motions.
The Chairman of the Board, Matthew Kaiser (“Kaiser”), refused to address this,
and simply sidestepped taking responsibility and then passed his responsibility on
for this Court to deal with. With any real substantial discussion, and just a cursory
denial, Kaiser stated:
In any case before the Board, it is duty bound to ‘review the findings
and recommendations of Hearing Committees submitted to the Board,
and to prepare and forward its own findings and recommendations,
together with the record of proceedings before the Hearing Committee
and the Board, to the Court.’ D.C. Bar. R. XI, section 4(e)(7). As
Respondent’s Motion plainly seeks to petition to the Board to do that
which it is mandated to do – and has done in the Board’s report – it is
denied as moot. App. 0123.
Furthermore, in the Emergency Motion, Mr. Klayman asked Kaiser if he and
the Board had had ex parte communications with ODC and this Court on numerous
occasions, which Kaiser refused to address. This creates the strong inference that
ex parte communications have occurred, particularly over the temporary
suspension order of January 7, 2021, as discussed below. How hard would it have
2

App.0030

been, for instance, to simply say “no,” if indeed there were to such ex parte
communications?
Then, once this matter reached this Court, on October 19, 2020 the DCCA
sua sponte issued an order to show cause as to why Mr. Klayman should not serve
an interim suspension while this matter was being decided, which could take a
considerable amount of additional time if a complete and thorough review of the
record should ever take place, which it must. Thus, temporary interim discipline,
particularly under these egregious and extraordinary circumstances, runs counter
to perhaps the most fundamental and basic tenet of our judicial system – that an
individual is to be provided due process and equal protection under the law, and
thus presumed innocent until proven guilty. However, to the contrary, this Court
has flipped fundamental constitutional rights on their head, finding Mr. Klayman
guilty until he can prove himself innocent.
This is especially outrageous given the underlying facts of this disciplinary
action, which, if indeed a thorough review of the record is ever undertaken, Mr.
Klayman is confident would logically result in a final order of no suspension. The
failure to undertake this review of the record severely prejudices not just Mr.
Klayman, but also his clients. As just one example, his client, Laura Luhn has been
severely prejudiced. App. 0037 – 0038. Other clients have terminated Mr.
Klayman even on matters that are not before District of Columbia courts, as a

3

App.0031

result of reading or hearing stories about the temporary discipline on the internet
and elsewhere. In short, the temporary suspension has been used strategically to
harm Mr. Klayman’s reputation, good will and standing with the courts before
which he practices, as adversaries, “smelling blood,” are using it to prejudice not
just Mr. Klayman but also his clients’ important interests.
In sum, the issuance of an order to show cause on January 7, 2021, shows
that this Court has already prejudged this matter and essentially made up its mind
about Mr. Klayman, regardless of what the underlying facts and law are.
Because of this, Mr. Klayman filed an extremely detailed response citing in
great detail, with backup citations, substantial evidence to the order to show cause,
as well as a supplement, both of which showed why interim discipline was not
warranted.

See November 30, 2020 Response to Order to Show Cause and

December 7, 2020 Supplement to Response to Order to Show Cause. However, the
Court appears to have ignored Mr. Klayman’s submissions and chose instead to
impose an interim suspension on January 7, 2021, while providing absolutely no
legal or factual analysis as to how it came to this decision. This prevents Mr.
Klayman from effectively challenging this order during the final phase of this
appeal, as he has no idea why the Court chose to impose interim discipline.
Indeed, for this fundamental reason, Mr. Klayman filed on January 11, 2021
a Emergency Motion to Vacate Order and Issue Ruing with Factual and Legal

4

App.0032

Analysis with Established and Mandated Judicial Practice Based on Due Process
and Other Constitutional Rights, but this was again summarily denied without any
legal or factual analysis. An order temporarily suspending Mr. Klayman is akin to
a preliminary injunction, which means that Mr. Klayman should have been entitled
to factual findings and conclusions of law so that he knows what he needs to
address in his actual briefs. As set forth by analogy in District of Columbia Rule of
Civil Procedure 52 (a)(1):
Unless expressly waived by all parties, in an action tried on the facts
without a jury or with an advisory jury, the court must find the facts
specially and state its conclusions of law separately. The findings and
conclusions may be stated on the record or may appear in an opinion or a
memorandum of decision filed by the court and are sufficient if they
state the controlling factual and legal grounds of decision.
Part (a)(2) of this Rule with regard to analogous interlocutory injunctions mandates
“In granting or refusing an interlocutory injunction, the court must similarly state
the findings and conclusions that support its action. Similarly, the Federal Rules of
Civil Procedure are substantively the same as the District of Columbia Rules of
Civil Procedure See Fed. R. Civ. P. 52(a)(1) – (2):
(1) In General. In an action tried on the facts without a jury or with an
advisory jury, the court must find the facts specially and state its
conclusions of law separately. The findings and conclusions may be
stated on the record after the close of the evidence or may appear in an
opinion or a memorandum of decision filed by the court. Judgment must
be entered under Rule 58 (2)
For an Interlocutory Injunction. In granting or refusing an interlocutory
injunction, the court must similarly state the findings and conclusions
that support its action.
5

App.0033

Mr. Klayman then attempted to file, pursuant to DCCA Rule 35, a Petition
for Rehearing En Banc. However, Mr. Klayman was not even allowed to file this
Petition, as it was rejected, apparently by the chief judge, this three judge panel
and all of the judges of this Court, on January 25, 2021 as “invalid material” on
the basis that the January 7, 2021 order was an interim suspension pending final
disposition. App. 0039. However, nothing in DCCA Rule 35 prohibits the filing of
a Petition for Rehearing En Banc to challenge an interim order. See DCCA Rule
35.
Thus, Respondent Larry Klayman’s Resubmitted Emergency Petition for
Rehearing En Banc to Vacate Three Judge Panel Per Curiam Order of January 7,
2021 and Reissue Order with Factual and Legal Analysis in Accordance with
established and Mandated Judicial Practice Based on Due Process and Other
Constitutional Rights was refiled to point out that Rule 35 did not prohibit en banc
review, but it was apparently summarily rejected again. It appears, once again, that
the Court was simply looking for a reason to continue to deny Mr. Klayman his
due process and equal protection rights by not providing him with any required
factual findings and conclusions of law, from which he could logically base his
arguments against discipline during this final phase of the proceeding.
To make matters even worse, Mr. Klayman has, until recently, been denied
his right to counsel under the Sixth Amendment to the Constitution. From the very
6

App.0034

outset of this case in this Court, Mr. Klayman made it very clear that he wished to
be represented by Melissa Isaak, Esq. pro hac vice. In this regard, Ms. Isaak first
filed an application for pro hac vice admission on November 11, 2020 and it was
not until January 21, 2021 that the Court finally directed the clerk to enter Ms.
Isaak’s appearance. See Order of January 21, 2021 directing Clerk to enter the
appearance of Melissa Isaak, Esq. This is an egregious and unconscionable over
three-month delay, that is over nine (9) weeks, during which time Mr. Klayman
was denied his right to counsel of choice until after the Court had already imposed
an interim suspension on him. See Order of January 7, 2021.
Lastly, Mr. Klayman has informed the Court on numerous occasions that he
was not being served timely with orders from the Court, which has caused him
prejudice. App. 0040 – 0044. As set forth in his Motion for Extension of Time of
January 3, 2021, he did not learn of the briefing schedule order until sixteen (16)
days after it had been issued. This is significant as he lost time to prepare for such
a voluminous brief. Tellingly, the Court has even refused to address this simple
matter, which can be easily fixed.
Regrettably, the numerosity and scope of these violations of Mr. Klayman’s
constitutional and other rights can only be seen as willful, given their frequency
and magnitude.

7

App.0035

All of this creates much more than a strong inference that the Court has
prejudged the issues, notwithstanding the underlying facts of this disciplinary
matter which are discussed further in detail below. This total breakdown of the
disciplinary process requires this Court to remedy this clear wrong. Mr. Klayman
thus respectfully requests that the Court immediately lift the temporary suspension
and thoroughly review the record to prevent a further and at this point compounded
miscarriage of justice.
STATEMENT OF UNDERLYING FACTS OF THE CASE IN CHIEF
Mr. Klayman is a conservative legal activist and the founder of both Judicial
Watch and Freedom Watch, as well as a former federal prosecutor and, as such, he
gravitated to the Iranian freedom movement and its mission to effect regime
change in the Islamic Republic of Iran. PFF 45. Mr. Klayman attended a freedom
rally on the front lawn of the U.S. Capital during the late fall of 2010, when it
appeared that dissidents in Iran appeared to be on the verge of overthrowing of the
radical Supreme Leader and thus bringing freedom to the nation. PFF 45.
It was at this rally that Mr. Klayman encountered and briefly spoke with the
complainant, Elham Sataki (“Ms. Sataki”), who was covering the event for the
Persian News Network Division (“PNN”) of Voice of America (“VOA”), whose
headquarters was in Washington, D.C. PFF 45. After Mr. Klayman introduced
himself to Ms. Sataki, who had concluded an interview, and told her about his pro-

8

App.0036

freedom efforts, he left and descended the Capitol steps with one of his clients.
PFF 45. Eventually, Mr. Klayman asked Ms. Sataki out in a personal capacity. PFF
46. On their dinner date at Clydes restaurant in Georgetown, Ms. Sataki broke
down in tears sobbing, grabbing Mr. Klayman’s hand from across the table. She
claimed to have been sexually harassed by a co-host at VOA’s PNN and then
retaliated against by mostly Iranian managers who had different views about Iran’s
leaders, as they were pro-regime. PFF 47. Sobbing and evoking sympathy from
Mr. Klayman, Ms. Sataki explained that she was destitute. PFF 106. Mr. Klayman
offered to help her out of friendship as she continued to sob. PFF 47. They met
again and Ms. Sataki told Mr. Klayman how her union president and representative
at VOA, Mr. Tim Shamble (“Mr. Shamble”) had also been trying to resolve the
situation. PFF 2, 50.
Mr. Klayman had had prior experience in bringing sexual harassment and
workplace retaliation cases over his long then 32 legal career in which he had
continuously been a member in good standing of the District of Columbia Bar. PFF
40, 41. In addition, he had considerable experience in administrative law and
litigating against the government. PFF 40. But the agreed goal, when he met with
Ms. Sataki and Mr. Shamble, was to try to settle matters amicably with VOA, and
to achieve Ms. Sataki’s expressly stated desire to be detailed out of the DC
headquarters to Ms. Sataki’s home in Los Angeles, where her friends and family

9

App.0037

were. PFF 20, 48. This would take her away from the alleged harasser, Mehdi
Falahati (“Mr. Falahati”), and her managers, who had been very critical of her
work performance quite apart from her sexual harassment and retaliation claims.
PFF 52, 115. Mr. Shamble warned that based on his considerable experience, VOA
was very difficult to deal with and was anti-employee rights. PFF 15, 50. Indeed,
he stressed that VOA had been rated as the worst agency in government by the
General Accounting Office (“GAO”). PFF 16.
Nonetheless, Mr. Klayman, Ms. Sataki and Mr. Shamble began efforts to
settle with VOA, but they were predictably met with a hostile reception, as Mr.
Shamble had predicted based on his experience as union president. As a result of
this hostile reception, Mr. Klayman, Ms. Sataki, and Mr. Shamble collectively
decided to use -- as is routine and acceptable strategic practice in matters such as
this where the is a political and intransigent government component -- public
relations and lobbying with influential Senators and Congressmen to have them
intervene and coax a settlement. PFF 128, 166. Ms. Sataki agreed to this publicity,
with Mr. Klayman writing positive and complimentary articles and arranging for
interviews with major publications, such as the Los Angeles Times. PFF 11, 166.
Indeed, a crucial piece of evidence in this proceeding is an email which Mr.
Klayman sent to the LA Times, copying both Ms. Sataki and Mr. Shamble,
attempting to arrange such an interview. PFF 11.

10

App.0038

This was consistent with Ms. Sataki being provided contemporaneously with
all the articles and publicity that Mr. Klayman, who along with Mr. Shamble, he
had generated for her. At no time did Ms. Sataki object, and there is no
contemporaneous written record of any objection. PFF 167. To the contrary, at the
hearing before the Ad Hoc Hearing Committee (“AHC”) she was forced to admit
on several occasions that she approved of this publicity. PFF 170. In addition,
several key material witnesses also corroborated this. PFF 91, 182. In fact, Ms.
Sataki personally engaged in the publicizing of her case by personally handing out
copies of one the articles written by Mr. Klayman on Capitol Hill! PFF 24.
Extensive efforts to lobby politicians were made, often with Ms. Sataki present, but
always with her informed consent. PFF 27. However, this strategy was not
successful as VOA and its Board of Governors (“BBG”) dug in their heels. PFF
53.
When these efforts proved unsuccessful, it was decided by Ms. Sataki, Mr.
Klayman and Mr. Shamble that hard-hitting legal action would be required, PFF
53, with the aim of “convincing” VOA and its decision-maker governors at the
BBG to settle. PFF 54. Accordingly, not only was an Office of Civil Rights
(“OCR”) complaint filed, so was a Bivens action against all the individual
governors on the BBG. It was agreed on by all three that holding the governors

11

App.0039

personally responsible and at risk might strategically convince them to be
reasonable and settle. PFF 54.
Named in the Bivens action, which was based on a violation of constitutional
rights over sex discrimination among other grounds, was necessarily the titular
head of BBG, Mrs. Hillary Clinton, who as secretary of state presided over BBG.
PFF 26, 54. Putting friendship aside for the benefit of Ms. Sataki, Mr. Klayman’s
friend, Ms. Blanquita Collum, a prominent conservative radio talk show host and
also a BBG governor, was also named, along with all of the other governors, both
Democrat and Republican appointees. PFF 25. Mrs. Clinton was neither singled
out nor admittedly did the Bivens complaint make any politically motivated attacks
on her. PFF 26, 209. She was simply named as a matter of course along with the
other governors. Importantly, Mr. Sataki, who knew that Mr. Klayman was
conservative and an activist like herself when he offered and then agreed to legally
represent her pro bono, expressly approved of this strategy. PFF 26.
There was considerable evidence adduced at the hearing that the singular
goal was always to get Ms. Sataki transferred to Persian New Network (“PNN”)
Bureau at VOA in Los Angeles and not to recoup damages. PFF 54, 76, 107, For
this fundamental reason, while Ms. Sataki gratuitously offered later that Mr.
Klayman could take a percentage of any damage award, this was neither a
consideration nor an offer important to him. PFF 54. Instead, it was out of what he

12

App.0040

thought at the time was a deep friendship with and caring for Ms. Sataki, that he
went to an enormous legal effort to get her back home to LA where she would feel
secure, and not to make money. PFF 76. Indeed, Mr. Shamble testified that he
never experienced any lawyer work as hard for a VOA employee than Mr.
Klayman that he even recommended him to other broadcasters at VOA who had
been allegedly discriminated against. PFF 6.
This was why when Ms. Sataki, having taken some leave to travel to LA for
vacation, had an emotional breakdown when she was told by VOA that she would
not be transferred to LA, and was instead being offered a post at the Central News
Division (“Central News”) in Washington. PFF 56, 109, she told Mr. Klayman in
an unhinged state that she would commit suicide if she had to go back to DC – a
constant theme of Ms. Sataki, who Mr. Klayman learned much later likes to use to
induce and lure people into helping her by playing the victim - even before she met
Mr. Klayman. PFF 109. Ms. Sataki thus instructed Mr. Klayman to continue to do
all he could to get her to LA. PFF 109.
Mr. Klayman did not seek a romantic relationship as ODC falsely and
conveniently claims, but had come to deeply care for and love Ms. Sataki and
sympathized with her, as he himself had been going through hard personal time
and understood and related to her claimed plight. PFF 49, 79. Even though Mr.
Klayman was not in good financial shape himself, he put the interests of his friend

13

App.0041

and client before his own. PFF 73. To this day, Mr. Klayman has never asked or
brought any legal action to be paid back, even after Ms. Sataki vindictively filed a
bar complaint against him when she did not get what she wanted at VOA’s Office
of Civil Rights (“OCR”) or in court. PFF 77. Importantly, there is no allegation of
sexual harassment in the Specification of Charges and Ms. Sataki has never filed
suit on this basis. PFF 105. Nor has there been any malpractice claim filed by her
or her surrogates, who prepared a supplemental bar complaint for her. PFF 136.
Importantly, and of seminal importance, this identical bar complaint was also sent
simultaneously to The Florida Bar and the Pennsylvania Bar, both which found no
violation of their rules of ethics, which are similar if not identical to this bar, and
summarily dismissed the complaints long ago. PFF 43; Tr. 969-971, RX23, RX 30.
This crucial and uncontested fact cannot and must not be overlooked!
Mr. Klayman, with Ms. Sataki’s consent and knowledge - as he not only
communicated orally with her and Mr. Shamble, but also routinely sent her
pleadings - had also filed a motion for temporary restraining order and preliminary
injunction, arguing under a landmark case styled Wagner v. Taylor, that the status
quo should be preserved by ordering that Ms. Sataki be put back to work in the LA
PNN Bureau while her administrative employment claims and the Bivens suit
proceeded. PFF 68.

14

App.0042

This Bivens case had unfortunately come to be assigned to a judge who Mr.
Klayman had had great difficulty with in the past for other clients, the Honorable
Colleen Kollar-Kotelly (“Judge Kotelly”), who is known to be highly partisan and
to the far left. PFF 55. For this reason, with Ms. Sataki’s informed knowledge, Mr.
Klayman moved to have the case transferred to another judge in the DC federal
court, but this was not granted.
At the time, a retired federal judge who had sat on the federal court with
Judge Kotelly, The Honorable Stanley Sporkin (“Judge Sporkin”), who Mr.
Klayman had appeared before and who after the jurist’s retirement he had come to
know out of the courtroom, was consulted by Mr. Klayman, who told him at the
time that it was a “chip shot” to have put Ms. Sataki back to work in LA. PFF 58.
However, as Mr. Klayman had feared, Judge Kotelly callously ruled against
Ms. Sataki and her order showed serious factual and legal errors – indeed, about 14
pages of which he later included in a motion to disqualify the judge. PFF 65. Later,
Mr. Klayman would give his public opinion, to which he is entitled – and which is
common for lawyers to do - that there was no factual or legal basis for Judge
Kotelly’s rulings. PFF 59. He would also seek to disqualify Judge Kotelly on the
basis of apparent bias and thus have her orders vacated so he would proceed for
Ms. Sataki before another unbiased judge. PFF 65, 66.

15

App.0043

But when learning of Judge Kotelly’s decision, Ms. Sataki, perhaps showing
more of her true “self-centered self,” became very abusive of Mr. Klayman, despite
all he had done to help her. Mr. Klayman had seen this self-centered demeanor
before as the legal and personal friendship relationships had gone forward. And
because he cared deeply about and came to love Ms. Sataki, he took her abuse and
disrespect to heart and wrote, as a human being, sad emails to her to try to get her
to understand how much he cared about her. But this notwithstanding, Mr.
Klayman also zealously and diligently continued to try to get Ms. Sataki a good
broadcasting job in LA, with the use of his friendship and contacts with his close
friend Ted Baehr, the head of Movieguide. PFF 63.
Seeing the difficulty in his legal relationship and friendship with Ms. Sataki,
Mr. Klayman recommended that she seek other legal counsel, including Gloria
Allred, the famed women’s rights advocate, Mr. Klayman’s friend and someone
who Mr. Shamble has also recommended, attorney Tim Shea, who had had many
cases before VOA. PFF 145.
It also got to this point when Ms. Sataki, taking advantage of Mr. Klayman’s
affection for her, asked Mr. Klayman, as she had throughout, for personal favors.
Ms. Sataki, who had no credit, even asked Mr. Klayman to buy her a car, as hers
had been repossessed due to her non-payment of monthly fees, and she claimed to
want a cheaper one, albeit and incredibly a new Mercedes convertible, to lower

16

App.0044

monthly payments. PFF 62. Thus, it became apparent to Mr. Klayman that the
time had come to part ways with Ms. Sataki, but he still did not want to hurt her or
her legal interests. In addition to the over $30,000.00 in expenses and the
approximately $250,000 dollars in time -- if he had not been representing Ms.
Sataki pro bono – Mr. Klayman went the extra mile and used his own monies to
compensate her for the loss of her former salary at VOA, and assured her that 6
months tenancy at the apartment he had rented for her was pre-paid. PFF 118, 157.
In this period, after Judge Kotelly’s ruling against Ms. Sataki, Mr. Klayman
and Mr. Shamble tried repeatedly to communicate with Ms. Sataki, to advise her
that only the first round of her case was lost – to put her back to work in LA at
VOA—but that she could now move forward not just to seek a permanent
injunction in the Bivens case, but also file a Title VII complaint in federal court
once as the OCR of VOA had ruled against her with regard to her employment
claims of sexual harassment and workplace retaliation by her managers, now that
administrative remedies had been exhausted. PFF 5, 32, 132. In this regard, Mr.
Shamble sent communications to Ms. Sataki asking that she contact Mr. Klayman
or himself, assuring her that none of her rights had been forfeited or lost. PFF 33.
However, Ms. Sataki did not respond, but instead, apparently with the aid of nonlawyers who were giving her bad advice, incredulously communicated with VOA
that she wanted to drop all of her civil cases. PFF 35. The letters which Ms. Sataki

17

App.0045

claims to have sent, were either not sent to Mr. Klayman or were sent to wrong
addresses and thus he did not receive them from her. PFF 69, 71,
Diligently and responsibly not wanting to see Ms. Sataki’s legal rights lost
while matters got sorted out, Mr. Klayman, again at his expense, filed a notice of
appeal. PFF 72. And while Ms. Sataki has testified falsely that she wanted to drop
the Bivens case, among other misleading and false testimony at the hearing, she
herself, likely with the aid of her felon cousin Sam Razavi (“Mr. Razavi”), sent a
notice of appeal to Judge Kotelly, which the judge placed in the case file and
mailed to Mr. Klayman. PFF 67. This underscores that, as Mr. Klayman had
suspected, Ms. Sataki did not want the dismissal of her cases and was getting bad
advice from non-lawyers. He and Mr. Shamble had an ethical and legal duty to try
to communicate directly with her and not rely on nonsensical letters obviously not
written by Ms. Sataki, as they were in perfect English. PFF 70, 161.
Indeed, by way of comparison, in an email which Ms. Sataki later sent to
Mr. Klayman, which falsely accused him of taking bribes to lose her case and
disparaged his Judeo-Christian religious beliefs, among other outrageous and
vicious insults and untruths, her lack of written English literacy comes through, as
well as the other cruel and self-centered side of Ms. Sataki, which had been hidden
from Mr. Klayman at the outset, but which emerged later on. BCSX 38. PFF 163.

18

App.0046

All of this notwithstanding, the Office of Bar Disciplinary Counsel (“ODC”)
belatedly, and egregiously six years after Ms. Sataki had filed and abandoned her
complaint, PFF 203, sought to resurrect it for its own biased strategic reasons, to
incredibly argue that Mr. Klayman should be disbarred. The thrust of ODC’s case
is that Mr. Klayman should never have deeply cared for Ms. Sataki and that he
never should have included Mrs. Clinton in the Bivens action. The fact that Mrs.
Clinton was made an issue in private lawsuit that did not single her out, but who
Mr. Klayman had sued on several occasions in his public interest capacity at
Judicial Watch and Freedom Watch, underscores the political nature of ODC’s
actions. It is no secret that ODC and the Board are managed by leftist pro-Clinton
Democrats. A simple review of Federal Election Commission records of those at
ODC, and the donations and writings of Chairman Kaiser, bear this out.
The highly partisan nature of this entire proceeding is thus no basis upon
which to recommend the “death sentence” of disbarment, much less any
suspension, for an attorney – regardless of his public interest advocacy and
political beliefs -- who has continuously been a member in good standing for
almost 37 years.
Indeed, ultimately, Ms. Sataki admits that is still seeing a doctor to this day
and is still on anxiety medication, eight years after Mr. Klayman’s representation.
This shows that her mental and other alleged problems are not the result of Mr.

19

App.0047

Klayman, but of her own. PFF 171. As for Mr. Klayman, sadly the old adage
applies that “no good deed goes unpunished,” notwithstanding that it’s not good to
be a conservative pro-Trump white male in today’s environment in the nation’s
capital in particular.
SUMMARY OF THE ARGUMENT
There were no legal or factual bases to find that Mr. Klayman had
committed any ethical violations, and the Board’s Report, which is full of
egregious errors, shows that the Board did not even review the record before
issuing its Report, but instead literally “rubber-stamped” a biased Hearing
Committee recommendation. Furthermore, interim discipline as set forth above is
entirely unwarranted and contrary to the fundamental tenets of our judicial system.
THE LAW
Mr. Klayman’s compelling case for no discipline is three-fold. First, the
temporary suspension order must be revoked immediately, as it has severely
prejudiced Mr. Klayman and his clients already as it is being used against them,
App. 0037 - 0038, and it contravenes the fundamental tenet that an individual is
presumed “innocent until proven guilty. Second, this matter is so old that it should
be dismissed on the basis of laches alone notwithstanding that was no basis for the
Board to find in its Report that Mr. Klayman had committed any ethical violation.

20

App.0048

Third, there was simply no requisite clear and convincing evidence of any
misconduct period, and as such this proceed should be dismissed.1
Furthermore, Mr. Klayman respectfully requests again that the Court
thoroughly review and digest his Proposed Findings of Fact, as well as his
Counter-Findings of Fact, which were filed with the Board, but apparently never
reviewed along with the record prior to issuing its Report. App. 0045 – 0077.
Lastly, at a bare minimum, if the charges against Mr. Klayman are not
summarily dismissed by the Court, which they should be, this matter must be
remanded to another unbiased Hearing Committee so that Mr. Klayman has a
chance to receive a fair adjudication. Separately, an internal review must be
conducted to determine how the Hearing Committee members were chosen and

With regard to the fee agreement, the record is clear that Mr. Klayman and Ms.
Sataki never agreed to any type of fee agreement, where Mr. Klayman would be
entitled to a certain percentage of any recovery. Indeed as set forth above the goal
was to have her relocated Los Angeles, where she could do broadcasting there for
VOA in its offices in the federal building on Wilshire Boulevard, where she could
be away from the alleged harasser and allegedly hostile management at VOA, an
also have access to her doctors and psychologists. The only agreement that was
made between Ms. Sataki and Mr. Klayman was that Mr. Klayman’s
representations was pro bono. This is shown in the record. “And, I said, well I will
try to help you, and you know, I’ll do it out of friendship. We’re now friends.” Mr.
Klayman told Ms. Sataki he would legally represent her pro bono. Tr. 326-27, 976977. Mr. Klayman has never received any money from Ms. Sataki, and has never
asked her to pay him a single dollar. PFF 75. Tr. 1057. BCX 29. Mr. Klayman
testified, “So I never asked to paid back, and to this day I wish her well. I pray to
God that she has a good life, but I’m not the cause of her problems.” Tr. 1066.
1

21

App.0049

whether there were any improper ex parte communications with this Court, which
Kaiser refused to address. App. 0123 - 0124.
I.

The Temporary Suspension Order Must Be Vacated Immediately
The Court’s October 19, 2020 order to show cause asks Mr. Klayman to

show why the “court should not enter an order of suspension pending final action
on the Board on Professional Responsibility’s recommendation.” Mr. Klayman
filed an extremely detailed response and supplement, which showed conclusively
that the Board’s Report was rife with material errors and misstatements of material
facts. Based on this, as it is clear that no discipline at all was warranted as there is
simply no clear and convincing evidence of any ethics violation much less an even
an interim order of temporary suspension.
The interim suspension order is clearly improper and unwarranted. Not only
would this potentially lead to a longer suspension than recommended by the Board,
should the Court adopt the Board’s recommendation, it flies in the face of one of
the basic tenets of the American legal system – that persons are entitled to a
presumption of innocence and are therefore innocent until proven guilty. This is
well-settled by the Supreme Court as early as 1895. Coffin v. United States, 156
U.S. 432 (1895). Mr. Klayman is unaware of any case or other authority that
grants this Court authority to order him to show cause and impose interim
discipline before the matter is even fully adjudicated with full constitutional due

22

App.0050

process and equal protection rights, based on a simple non-final recommendation
of the Board, which piggybacked on a biased, manifestly unjust and fatally flawed
Hearing Committee recommendation.
To suspend Mr. Klayman now has resulted in the misuse of state action to
deny him his due process, equal protection and other constitutional rights,
including right to counsel. Mr. Klayman has been now been severely prejudiced by
an inability to practice law in the District of Columbia before any final finding of
misconduct. Not only has this already severely harmed Mr. Klayman, but worse
the rights of his clients – both present and potential -- as well as his public interest,
non-profit work, which requires the filing cases in the District of Columbia where
public officials and government agencies reside and do business.
The Court must therefore adhere to the fundamental tenet that Mr. Klayman
is innocent until proven guilty and allow this matter to run its fill course before any
action, even temporary, is imposed.
Lastly, and equally important, in a recent opinion dated June 11, 2020 from
this Court in disciplinary proceeding 18-BG-100, this Court recently made the
finding that, “we are not left with “[s]erious doubt” or “real skepticism” that
Mr. Klayman can practice ethically…. Accordingly, we decline to impose a
fitness requirement.” Nothing can change this recent finding, especially where
the Board has only issued a Report and Recommendation, and it is clear that the

23

App.0051

Board did not even take the time to review the record, much more adhere to the
legal standard of clear and convincing evidence to consider and if appropriate find
violations of ethics rules. Under these extraordinary circumstances as well –
especially in a matter which has going for nearly eleven (11) years -- it is clear that
interim discipline is simply not warranted or just.
And, importantly, since this Court’s June 11, 2020 order which found that
that “ we are not left with ‘serious doubt’ or “real skepticism’ that Mr. Klayman
can practice ethically -- just a few months ago -- nothing has changed. The
interim temporary suspension order of January 7, 2021, must therefore be vacated
immediately.
II.

Numerous Due Process Violations, Including Laches, Mandate
Immediate Dismissal of the Charges Against Mr. Klayman
This matter is now going on eleven (11) years, that is over complete decade,

and during this time period material witnesses like Professor Ronald Rotunda sadly
died. Another important material witness, Ms. Sataki's psychologist Dr. Arlene
Aviera, contracted serious if not terminable cancer, preventing her from testifying
at the hearing. Ms. Aviera, if she had testified, would have been sympathetic to Mr.
Klayman's difficulty in representing Ms. Sataki, notwithstanding her other related
testimony. Moreover, her internal notes about her treatment of Ms. Sataki, if
discovery had been allowed, would have been more than crucial. Indeed, as
reflected on the record, it was Mr. Klayman who found and took Ms. Sataki to Dr.
24

App.0052

Aviera, not just because she became his client, but because he cared for her. PFF #
110.
As evidence of how important Dr. Aviera’s testimony would have been at
the hearing, Ms. Sataki testified that she is still seeing a doctor to this day and is
still on anxiety mediation – eight (8) years after Mr. Klayman’s representation
ended. This shows that her mental and other problems were not the result of Mr.
Klayman, but her own. Tr. 201, PFF 171. Ms. Aviera’s testimony would have been
crucial in this regard, as she was the psychologist who treated Ms. Sataki at the
time the events unfolded and would have been able to provide the Hearing
Committee with the proper medical diagnosis and records to back it up. Instead,
Ms. Sataki was free to simply vindictively blame all of her problems on Mr.
Klayman because she did not get what she wanted, a job in the coveted LA PNN
Bureau of VOA.
Early on in the case, given the extraordinary delay where memories had
faded, documents been misplaced or lost and as Respondent, given the enormous
delay, believed that Ms. Sataki's complaint had been dismissed by ODC

as

identical complaints had been dismissed by his other state bars in Florida and
Pennsylvania, and where witnesses memories were likely to have faded, Mr.
Klayman moved for discovery of both Ms. Sataki and Aviera based on the
consequences and inherent prejudice caused by of this inordinate delay. The

25

App.0053

motion was incredibly denied, with the Chair Mr. Fitch and Mr. Tigar, the two
lawyer members of the Hearing Committee, disingenuously ruling that the issue of
discovery could be raised again at the later hearing. Indeed, Mr. Klayman did so
move again, after ODC, without proper notice, sandbagged Mr. Klayman by
presenting on the first day of the hearing scores of new exhibits which had not
been made available in the previous eight years, mostly consisting of Ms. Sataki’s
previously non-disclosed emails and other documents. Tr. 18. The Hearing
Committee and Mr. Klayman were also informed for the first time by ODC that
Dr. Aviera, who ODC had been listed as a witness, would not be present at the
hearing to testify due to the terminal cancer she had contracted during the
interminable intervening years. For these two compelling and extraordinary
reasons, Respondent renewed his request for discovery of both Ms. Sataki and
Aviera, the latter of which could have been taken by video conference. This
renewed motion was quickly and tersely denied. Tr. 133-137.
In the Board's Report, the Chairman and his Board seriously errored, again
evidencing that a thorough, complete and full review of the record had not taken
place before issuance of the Board Report on October 2, 2020. The Board found
wrongly at page 28, for instance, "(with) respect to Dr. Aviera Respondent could
have sought permission to depose her on grounds that he needed to preserve her
testimony due to her illness. He did not." But this is exactly what Respondent had

26

App.0054

done, not once but twice. This error is so glaring that it impeaches the accuracy and
integrity of the entire Board Report.
In addition, most jurisdictions would have thrown this proceeding out on the
basis of such an enormous delay alone. As Professor Rotunda observed:
In Florida Bar v. Rubin, 362 So.2d 12 (Fla. Sup. Ct. l 1978) (per
curiam), the Florida supreme court threw out charges because the
prosecutor because of the Bar's delay in violation of the Florida
rules… One can summarize this case as the Bar delaying finalization
of two cases (where the Bar was disappointed with the recommended
discipline) because it was confident it would secure a conviction in a
third case still in the pipeline in the hope of securing greater overall
disc line. The Court said, ‘Whatever other objects the rule may seek to
achieve, it obviously contemplates that the Bar should not be free to
withhold a referee 's report which it finds loo lenient until additional
cases can be developed against the affected attorney, in an effort to
justify the more severe discipline which might be warranted by
cumulative misconduct. The Bar's violation of the prompt filing
requirement in this case, to allow a second grievance proceeding
against Rubin to mature, is directly antithetical to the spirit and intent
of the rule. In addition, it has inflicted upon Rubin the ‘agonizing
ordeal’ of having to live under a cloud of uncertainties, suspicions,
and accusations for a period in excess of that which the rules were
designed to tolerate. RX 5.
Professional ethics expert Rotunda in the opinion he wrote before he died during
the intervening years also convincingly cited numerous other cases that held that
ODC should be subject to the principle of laches. App. 0127 - 0133. They include
The Florida Bar v. Walter, 784 So.2d 1085 (Fla. Sup. Ct. 2001); In re Grigsby, 815
N.W.2d 836 (Minn. 2012); In Matter of Joseph, 60 V.I. 540, 558- 59 (V.I. Feb. 11,
2014); Hayes v. Alabama State Bar; 719 So 2d 787, 791 (Ala. 1998). RX 5. As just

27

App.0055

a few examples, Mr. Rotunda found that in Indiana Bar expressly limits the time to
complete a disciplinary investigation in its own rules: Limitation on time to
complete investigation. Unless the Supreme Court permits additional time, any
investigation into a grievance shall be completed and action on the grievance shall
be taken within twelve (12) months from the date the grievance is received…. If
the Disciplinary Commission does not file a Disciplinary Complaint within this
time, the grievance shall be deemed dismissed.”
Indeed, the record is clear that Florida and Pennsylvania dismissed identical
complaints very early on. PFF 43; Tr. 969-971, RX23, RX 30. The Board glaringly
made no mention of this in its Report, showing that the record was definitely not
reviewed and that. Mr. Kaiser and the rest of the Board just “rubber stamped” a
biased and fatally flawed Hearing Committee recommendation.
III.

There Was No Basis, Much Less Clear and Convincing Evidence, for
the Finding that Mr. Klayman Had Committed Any Ethical Violations
Under Board Rule 11.5, charges against Mr. Klayman must be proved by

“clear and convincing” evidence. In re Vohra, 68 A. 3d 766, 784 (D.C. 2013). As
set forth below, charges against Mr. Klayman must be dismissed because there is
nothing even remotely close to “clear and convincing” evidence that Mr. Klayman
had engaged in ethical misconduct.
1.

“Emotional Interest” is Not an Ethical Violation

28

App.0056

The Board has come up with and manufactured out of “thin air” a novel if
not bizarre non-existent ethical violation for Mr. Klayman dubbed “emotional
interest.” This is not an ethical violation. If it was a violation, lawyers would be
prohibited from representing friends, family members, or even spouses who they
care about and love – or basically anyone that is not a complete stranger. It is clear
that no such prohibition exists. Attorneys are people who have feelings and
emotions. There is no ethical prohibition against this.
To the extent that the Board strangely and disingenuously couches this as a
conflict of interest violation, it is clear that Mr. Klayman had informed consent.
This is admitted by the Board in its Report, where Mr. Klayman “repeatedly
communicated his feelings to [Ms. Sataki]” and “she asked him to continue with
the representation.” App. 0010. The Board then incredulously tries to find that Mr.
Klayman did not believe that he could provide adequate representation to Ms.
Sataki – a claim which is belied by the actual record in this matter. Indeed,
testimony shows that Mr. Klayman throughout did everything he could to
diligently represent Ms. Sataki. Likewise, he did everything possible to ensure that
her legal rights were protected. The Board strained and stretched to find a violation
where none existed, finding that Mr. Klayman’s “emotional interest” somehow led
to a lack of communication with Ms. Sataki. However, as set forth in infra section

29

App.0057

II(A)(3), this is blatantly incorrect and Mr. Klayman kept Ms. Sataki apprised of
everything going on in her case. Tr. 1011.” PFF 60.
For instance, Tim Shamble (‘Mr. Shamble”), Ms. Sataki’s union
representative and president of the union at VOA declared under oath that Mr.
Klayman was “very diligent in attempting to represent Ms. Sataki, putting in many
hours, and Mr. Klayman did not, to his knowledge, compromise any of Ms.
Sataki’s rights.” PFF 3, RX 1, RX 5. Indeed, Mr. Shamble felt so strongly about
Mr. Klayman’s representation of Ms. Sataki that he referred Mr. Klayman to other
VOA employees. PFF 6, RX 1, RX 5, Tr. 902. Mr. Shamble testified:
I've had several employees that have hired attorneys, and they have
asked for the union to cooperate with them and to, you know, help
them with their cases. But, in all honesty, I've never seen one go as far
and as dedicated as Mr. Klayman was towards Ms. Sataki. I felt like
he went above and beyond.” Tr. 903-04.
Thus, the facts and the record show that despite any “emotional interest,”
Mr. Klayman was undeniably able to diligently and competently represent Ms.
Sataki. In fact, he worked harder for Ms. Sataki because he cared about her.
Mr. Klayman also spent a huge amount of his personal time and expense to
help Ms. Sataki, including paying for her moving expenses to Los Angeles as well
as medical care, over $30,000 dollars in sum, and in fact this is to be commended.
PFF 62, PFF 110, Tr. 348, Tr. 350. There is nothing wrong and unethical with
doing this to try to help someone that he considered a close friend that he came to

30

App.0058

care about at the time. Indeed, if anything it was Ms. Sataki who acted improperly
due to “emotional interest,” when she tried to have Mr. Klayman buy her a car,
(which was a new Mercedes convertible no less), as she admitted at the hearing.
Tr. 429, 432-35. PFF 62. At that point Mr. Klayman realized that Ms. Sataki was
simply trying to take advantage of their friendship, and he therefore recommended
to Ms. Sataki to have another attorney step in to represent Ms. Sataki, including his
friend, Gloria Allred, who testified on Mr. Klayman’s behalf at the hearing. PFF
78, Tr. 1079-1080. Mr. Klayman and Mr. Shamble also recommended attorney
Tim Shea, who had worked cases against VOA before. PFF 145, Tr. 549-550. It is
not Mr. Klayman’s fault that Ms. Sataki did not hire the other attorneys who Mr.
Klayman had found and Mr. Shamble recommended for her. Mr. Klayman had no
power over her choices.
When ultimately Ms. Sataki did not, for whatever reason, get the result she
wanted, angry and unhinged, she struck back at Mr. Klayman, sending him the
below offensive email which mocked and disparaged his religion and falsely
accused him of taking bribes, which was entered into evidence but conspicuously
never even mentioned in the Board’s Report, much like the dismissals years earlier
by The Florida Bar and the Pennsylvania Bar. This email underscores the verbal
and other abuse Mr. Klayman had experienced with Ms. Sataki throughout, as the
victim she saw herself as she apparently caused her to believe that she had all

31

App.0059

things coming to her, including a car, and explains the basis for many of his
communications with her, since as a human being with feelings for her, he felt
hurt. Ms. Sataki savagely wrote:
I do not know if you are Christian or Jewish, because whichever suits
you best, you become one. But I believe in karma and what you have
done with my case and losing it. ́ Ms. Sataki also wrote: And what you
have done with my case and losing it and not stopping working on it
when I ordered you, one day you’ll answer to God, even if you throw
your life and play with people life. I am nobody, just a little girl who was
retaliated and harassment by some VOA employee and you seed (sic)
that you can help me. Not only did you not help me, but destroyed my
life to nothing….
Mr. Klayman are you happy now that you’ve complete destroyed and
lost my case? A case with so many evidence and witnesses. Only a very
bad and clueless attorney could lose it, or lost it on purps (sic) because
you made a dill (sic), with the other party. PFF #163, BCSX 38.
This shows that Mr. Klayman was simply stuck in a “heads I win, tails you lose
situation” with Ms. Sataki. While he did everything he could to help her, Ms.
Sataki would alternate between trying to use him to buy her a new car and to take
other advantage or abusing him. Mr. Klayman still did everything he could,
however, to protect Ms. Sataki’s legal rights because it was the ethical thing to do.
Mr. Klayman’s sister, Joshua Ashley Klayman, Esq., who had interacted with Ms.
Sataki socially with her boyfriend, testified that she thought Ms. Sataki was using
Mr. Klayman. “I mean, I vacillated between kind of liking her and being
suspicious of her, quite frankly, as your sister…she was very forward in terms of
requesting different things for her personally.” Tr. 1527-28.
32

App.0060

2.

Mr. Klayman Did Not Fail to Abide By Ms. Sataki’s
Decisions Concerning the Objectives of Representation

The Board’s finding that Mr. Klayman had violated Rule 1.2 by failing to
abide by Ms. Sataki’s decisions concerning the objectives of the representation is
flatly unsupported by the record.
The Board makes the unsupported finding that Ms. Sataki “intended to
pursue her case with minimal publicity.” This flies in the face of a litany of
compelling record evidence submitted by Respondent, including testimony of Ms.
Sataki herself! See PFF 170:
Importantly, even on questioning from ODC, Ms. Sataki admits that she
agreed to the use of publicity to coax a settlement so she could be detailed to the
LA bureau of VOA.
Q: Did you ultimately agree with Mr. Klayman about the
publicity?
A: I did. Tr. 775.
Mr. Klayman also provided testimony from numerous witnesses that shows
that Ms. Sataki’s belated claim was false. This included Keya Dash - see PFF 91
(“Mr. Dash declared under oath that he was present when the use of publicity to
coax the BBG into settlement was discussed with Ms. Sataki, and that Ms. Sataki
approved of its use.”); This also included Joshua Ashley Klayman, Mr. Klayman’s
sister and herself a distinguished Wall Street lawyer - PFF 180 (“Ms. Sataki openly
33

App.0061

discussed the VOA case with Ms. Klayman many times. [Ms. Joshua Ashley
Klayman testified] “Yes, quite openly. And I met her multiple times. It wasn't that
I just met her one time. Yes, she was quite open with what the circumstances of her
challenges were…. an, she was very, very open, which -- I'm not a litigator. I don't
really know anything about litigations, but I was surprised that she was so open.”
Tr. 1524.). Furthermore, and again, she testified that she thought Ms. Sataki was
using Mr. Klayman. “I mean, I vacillated between kind of liking her and being
suspicious of her, quite frankly, as your sister…she was very forward in terms of
requesting different things for her personally.” Tr. 1527-28.
Even further buttressing Mr. Klayman’s strong argument is the compelling
testimony of Mr. Shamble, who was Ms. Sataki’s union representative and
importantly the president of her union, as Mr. Shamble was representing Ms.
Sataki along with Mr. Klayman. Mr. Shamble testified that publicity was a helpful
tool in dealing with an agency as notoriously difficult and anti-labor as VOA. PFF
23. Specifically, he testified “[w]e've done it. It's something that you can use to
pressure managers, if they're intractable, you know, to try to get them to come to
some sort of agreement. We have our own website, so we use it, too.” Tr. 892-893,
RX 5. The reason that publicity was often used, according to Mr. Shamble, was
that BBG, of which VOA is a subcomponent, has been ranked the worst agency in

34

App.0062

government, and is very difficult to negotiate any settlement with because of its
management’s attitude and approach to employees. RX 1, RX 5. PFF 7.
Perhaps as the final “nail in the coffin” for the Board’s blatant error is the
fact that Ms. Sataki personally participated in publicizing her case:
Mr. Shamble and Ms. Sataki went together on one occasion to
publicize her situation. “I remember one time. The VOA was on the
mall here in Washington, some kind of public -- it might have been a
recruitment fair or something. But we had an article and both her and I
were distributing it to people in the vicinity, tried to let people know
and to let the agency know that, you know, we were going to
publicize this.” Tr. 893. The article that both Mr. Shamble and Ms.
Sataki distributed was called “"Government War on a Freedom
Loving Beauty. Exclusive, Larry Klayman Goes to Bat for Harassed
Broadcaster Fighting for a Free Iran." Tr. 894. RX 1. PFF 24.
Furthermore, Mr. Klayman incredibly learned during the Board briefing process
that Ms. Sataki had participated in making a documentary about her case against
Voice of America (“VOA”), which further undercuts any possible false claim that
Ms. Sataki did not agree to publicize her case.2 The video, which is in Ms. Sataki’s
native language Farsi, was translated by one of Mr. Klayman’s witnesses, Keya
Dash, as well as a respected Farsi certified translator who used to work for VOA.
App. 0119 – 0122. To be certain of and confirm the content, Mr. Klayman also had
the documentary translated by Mohammad Moslehi, a certified translator who did
translations for VOA. App. 0122. Mr. Moslehi translates this “smoking gun” as
follows:
2

https://www.youtube.com/watch?v=e3g5f61muZ4
35

App.0063

Whenever I am at my desk and I am not paying attention, he allows
himself, to touch me under variety of pretexts.
(displaying Elham [Sataki]’s photo) former broadcaster of VOA.
Mr. Falahati, Asal has written this for us, Well: let us answer the first
caller (by the name of - Translator) Hossain from Kerman. Hello, go
ahead please.
(displaying photo of Mehdi Falahati) broadcaster for the VOA network
VOA: Voice of America
Voice of America has been recognized as the worst entity of American
government. Therefore, lots of such coteries and issues exist there.
Everybody says that the atmosphere is of a security one. Nobody can
talk with anybody. Everybody makes insinuations against one another.
The environment is very dirty.
This week is second evening of being online with the subject of
presidential elections in Iran and it's outcome, with your phone calls,
emails and online weblogs and websites that Elham [Sataki] will
introduce to you.
Regarding Mr. Falahati: He repeatedly asked me to go out with him. I
didn't want to do it. Mr. Falahati and I started the ONLINE show
together and we were performing it together. Aside from other aspects, it
was very unprofessional.
When two individuals appear on camera and conduct a show, going out
on a date, since it can directly affect the show is not right. They may
fight with each other and that will affect the show, and vice-versa. He
was not the type of person that I would accept his offer, and say that, all
right let's go on a date.
The problem was, he did not know how to take a no. After a while I
reached to the point that I was always calling sick and did not go to
work. Since I wanted to start working, and Mr. Falahati wanted to come
to my desk and again ask me let's go have a coffee or have dinner·. And
this no, and saying no to him repeatedly had become exhausting for me,
had made me very tired. I went to Suzanne who was our executive
producer and told her the situation, that he (Mr. Falahati) does so. and I
(Elham [Sataki]) don't know what to do at this point. Personally, I am
not able to handle it.
The situation will go over the board of the status of going out for dinner,
and he will come to my desk and while I am not paying attention, under
various excuses touch me. Since I was afraid, I told her (Suzanne) that,
can you handle it without anybody to know?? That day she told me that
"Legally I cannot do it and you must formally file a complaint."
36

App.0064

Mr. Falahati wanted to take revenge, since I complained and stated that
the situation was so. As I was behind my desk, twice he came to my desk
(audio censored) the dress that I had on and my bra-cord. I hollered at
him (audio censored) he laughed and said "don't tell anybody." I was not
feeling well. I was seeing psychiatrist. I was seeing psychologist. I was
not feeling well. All the documents are available. Everything related (to
this matter) exists. I was seeing doctor and the doctor was prescribing
relaxing pills for me to take.
At this point, I am just saying, Mr. Falahati is a sick person that has not
done so just with me, but the system of VOA has problem. Jamshid
Chalangi testified for me. Look what happened? Mahmonir, another lady
testified for me. She suffered a lot. Mr. Ali Sajjadi and Mr. Falahati were
friends. At that time Mr. Sajjadi was very powerful there. They all got
together. And even Suzanne who was my executive producer and was
mad from this incident, she teamed up with them. And this caused the
problem to be difficult for me, and no attorney was taking my case,
because this case had become very big. And when the case became so
big, then the Board of Governors had to defend itself, and defending
itself caused the case to become against me. And they say that Elham
left, Falahati stayed. When they fired me, I was not the only girl. There
are a number of others.
Caption dispalying Falahati and [Sataki] with written scripts.
The law suit against Mehdi Falahati due to the VOA influence did not
get to anywhere, and El ham Sattaki was fired from this network .. After
a short period of time Jamshid Chalangi and Ms. Mahmonir Rahimi
were fired from this network.
Display of Mehdi Falahati laughing loud.
This

video

can

and

should

be

viewed

on

YouTube

at

https://www.youtube.com/watch?v=e3g5f61muZ4.
Chairman Kaiser and his Board disingenuously and egregiously refused to
consider this critical evidence in its order of October 2, 2020, found by a paralegal
to Mr. Klayman’s former counsel, Barbara Nichols. during the briefing process,
and refused to allow it to be supplemented onto the record, despite its compelling

37

App.0065

and extraordinary character and circumstances, which Kaiser admitted is the test to
supplement the record. See Order of October 2, 2020. Nor would Kaiser and his
Board even consider it. This extraordinary evidence definitively shows that Ms.
Sataki perjured herself when she testified, having obviously been coached prior to
the hearing to do so. In short, this was consistent with her admissions on cross
examination, and contradicted her belated, contrived and false testimony that she
did not want to use publicity in her case against VOA. This is another example of
the Board’s fundamentally flawed lack of due process, which severely prejudiced
Mr. Klayman.
Thus, it was, frankly, impossible for the Board to make the finding that
“Ms. Sataki intended to pursue her case with minimal publicity” in good faith if it
had actually reviewed the record and the hearing testimony of Mr. Shamble, Mr.
Dash, Ms. Klayman, Mr. Klayman and even Ms. Sataki’s own admissions, as well
as taken note of this extraordinary duly discovered evidence. Such a blatant and
egregious material error shows why Mr. Klayman was forced to file his Motion for
Reconsideration and Notice of Record Material with the Board on Professional
Responsibility.
Similarly, the Board’s finding that Mr. Klayman had failed to abide by Ms.
Sataki’s wishes to dismiss the case in a July 30, 2010 email is unsupported by the
record, much less the requisite clear and convincing evidence. Indeed, Mr.

38

App.0066

Klayman, on July 28, 2010, filed a notice of voluntary dismissal dismissing all but
two of Ms. Sataki’s claims PFF 68. The only two remaining claims at that point
were for a Privacy Act claim, and for Wagner injunctive relief. PFF 68. Consistent
with what was purported to be Ms. Sataki’s wishes, Mr. Klayman filed no
opposition to the pending motion for summary judgment as to the Privacy Act
Claim, and Judge Kotelly had at that point already ruled against Ms. Sataki with
regards to the Wagner injunctive relief. PFF 68. Thus, the only actions that were
taken in the BBG case after July 30, 2010 were to preserve Ms. Sataki’s rights on
appeal, whether they be exercised by Ms. Sataki herself or with the assistance of
other counsel. PFF 78. In any event, Judge Kotelly ultimately dismissed the action.
PFF 68.
And importantly but also overlooked was that Mr. Klayman further
convincingly and credibly testified that it was highly unlikely that any
correspondence that purportedly came from as Ms. Sataki actually did originate
from her, given the literate English that was used. PFF 70, 161, 163. Mr. Klayman
was familiar with Ms. Sataki’s admittedly poor written English, which is
exemplified in BCSX 38, the August 4, 2010 letter. The letter which was written to
Danforth Austin and not Mr. Klayman, was tellingly and revealingly written in
perfect English. Poor written English was one of the difficulties she had
experienced with VOA supervisors. PFF 70, Tr. 1041, RX 21. Thus, where it was

39

App.0067

clear that Ms. Sataki was not the one who wrote the August 4, 2010 letter, Mr.
Klayman had, at a minimum, an ethical duty to speak with Ms. Sataki personally to
confirm her wishes before taking actions to forego all of her legal rights, include
appellate rights. In fact, as strong evidence that Ms. Sataki did not actually wish to
terminate her litigation, she herself filed a notice of appeal, purportedly pro se,
later that year. PFF 67, RSX 4, Tr. 1031.
Indeed, Mr. Shamble, who was working as Mr. Klayman’s partner on behalf
of Ms. Sataki, testified as well that he also tried on numerous occasions to
communicate with Ms. Sataki, but was rebuffed as well:
Mr. Shamble declared under oath that communication became very
difficult and nearly non-existent with Ms. Sataki. When he and Mr.
Klayman would try to contact Ms. Sataki, we usually got no response,
even for months. PFF 4; RX 1, RX 5.
These uncontroverted facts render the Board’s finding that Mr. Klayman had
failed to abide by Ms. Sataki’s “wishes” to dismiss her cases blatantly incorrect
and entirely unsupported by the record. Mr. Klayman simply did what any ethical
lawyer would do in that situation, which is to ensure that his client did not lose her
legal rights. Ms. Sataki could have still filed a civil rights complaint when the
VOA Office of Civil Rights denied her administrative claims, finding in effect that
she had not been truth to it. And, as set forth above, as conclusive evidence that
Mr. Klayman did act pursuant to Ms. Sataki’s wishes, Ms. Sataki herself filed a
notice of appeal, purportedly pro se, later that year, which would not have been
40

App.0068

possible without Mr. Klayman acting to protect her legal rights. PFF 67 RSX 4,
Tr. 1031.
Indeed, if there was anyone who failed to abide by Ms. Sataki’s wishes, it is
actually ODC, who, for its own motives, literally hunted down Ms. Sataki years
after she had abandoned her complaint against Mr. Klayman, contrary to ODC’s
own rules and policies that would render her complaint void, to get her to
participate. RX 27. As shown in PFF 169:
Ms. Sataki had abandoned her complaint, but it was resurrected by ODC,
despite two other bars having dismissed it many years earlier. In fact,
internal correspondence of ODC reveals that it had to use private
investigator Kevin O’Connell to try to hunt down Ms. Sataki. RX 27.
The internal correspondence of ODC admits: I am trying to locate a
complainant that has dropped off the map. Ms. Elham Sataki…. She
filed a complaint vs. Larry Klayman in 2011. Her only correspondence
with us was the ethical complaint that she filed. My letter to her dated
7/7/11 was not responded to, but was not returned by the USPS either. I
recently tried to contact her by telephone, but her number is not in
service. I’ll appreciate your efforts to locate her and to provide some
reliable contact information.
In sum, it was very difficult for Mr. Klayman to determine what
communications were coming from Ms. Sataki or those genuinely acting on her
behalf, as neither he nor Mr. Shamble could not get in contact with Ms. Sataki to
confirm her real wishes. Any attorney placed in this position is simply between “a
rock and a hard place,” and Mr. Klayman simply thought it better to err on the side
of caution to ensure that Ms. Sataki’s legal rights were ultimately protected, which
is any ethical lawyer’s ultimate duty. In this situation, Mr. Klayman could also
41

App.0069

have been later accused of malpractice and sued if he dismissed the actions based
on a third party’s communications. And, even seven (7) years later, when ODC
resurrected Ms. Sataki’s abandoned complaint, she still wanted to pursue her
claims for alleged sexual harassment and workplace retaliation, claims which had
been proven false by the Office of Civil Rights (“OCR”). PFF 155.
ODC has documents in is possession that show that when they contacted
Ms. Sataki to revive her complaint against Mr. Klayman, she stated that she
wanted to do so in order to have a reason to provide persons who asked why she
was no longer working at VOA. Further, she implored ODC to pursue her sexual
harassment claims against VOA, which further shows that she had no desire to
dismiss her claims. At the hearing, Ms. Sataki confirmed and thus conclusively
admitted this: “Q: That you wanted Bar Counsel to file a sexual harassment case
for you. You asked them that within the last year, against VOA. A: I asked if it's
doable.” Tr. 489. That this was tellingly omitted in the Hearing Committee
recommendation that was “rubber stamped” by the Board is shocking!
3.

Mr. Klayman Did Not Fail to Communicate with Ms. Sataki

The Board makes an incredibly unsupported finding, particularly by clear
and convincing evidence, that Mr. Klayman had violated Rule 1.4(b), which
mandates that an attorney “shall explain a matter to the extent reasonably

42

App.0070

necessary to permit the client to make informed decisions regarding the
representation.”
What makes the Board’s finding incredibly bizarre is that there is no
allegation in its Report that Mr. Klayman failed to keep Ms. Sataki informed of
how her cases were going.

Importantly, this claim is not in the controlling

Specification of Charges, and as set forth above, in any event, Mr. Klayman kept
Ms. Sataki informed of her case every step of the way.
And again, there is also no mention of this supposed violation in the
controlling Specification of Charges which also simply alleges that Mr. Klayman
“failed to reasonably explain a matter to his client to permit her to make an
informed decision regarding the representation.” As set forth above, this itself is
blatantly incorrect, but in any event, nothing in the Specification of Charges even
mentions the novel “violation” that the Board created – speaking with a client
outside of the scope of the professional representation as an attorney.
It is truly regrettable to say the least that Chairman Kaiser and the Board
would strain to try to create an ethical violation here when one clearly does not
exist. Indeed, what the record and evidence does show is that Ms. Sataki was
“….kept informed of Mr. Klayman’s strategy and actions on her behalf every step
of the way. Tr. 1011.” PFF 60. The Board’s finding here was in clear error, much

43

App.0071

less even coming close to establishing the clear and convincing evidentiary factual
and legal threshold for an ethics violation.
4.

Mr. Klayman Did Not Disclose Any Client Secrets

Hand in hand with the Board’s incredibly strange and unsupported if not
inexplicable finding without clear and convincing evidence that Mr. Klayman had
failed to communicate with Ms. Sataki, is its finding that Ms. Sataki did not give
informed consent for disclosure of certain “secrets” contained in articles that Mr.
Klayman had written on Ms. Sataki’s behalf. This is conclusively rebutted by Mr.
Klayman’s irrefutable and accurate Proposed Finding of Fact 24:
Mr. Shamble and Ms. Sataki went together on one occasion to publicize
her situation. “I remember one time. The VOA was on the mall here in
Washington, some kind of public – it might have been a recruitment fair
or something. But we had an article and both her and I were distributing
it to people in the vicinity, tried to let people know and to let the agency
know that, you know, we were going to publicize this.” Tr. 893. The
article that both Mr. Shamble and Ms. Sataki distributed was called
“"Government War on a Freedom Loving Beauty. Exclusive, Larry
Klayman Goes to Bat for Harassed Broadcaster Fighting for a Free Iran."
Tr. 894. RX 1.
How is it even remotely possible to come to the conclusion that Ms. Sataki did not
consent to disclosure of these purported “secrets” when she herself was handing
out the articles in question on Capitol Hill?! The only possible explanation, tongue
in cheek, is that perhaps Ms. Sataki was blind or illiterate at the time and therefore
unable to comprehend what she was handing out? There is nothing that supports

44

App.0072

this in the record, much less rises to the high level of clear and convincing
evidence.
Perhaps even more off base and frankly absurd is the fact that the Board
expressly recognizes that Ms. Sataki was personally handing out these “secrets” on
Capitol Hill, yet simply blithely and indifferently writes “[b]ecause we conclude
that Respondent here violated Rule 1.4 and did not communicate appropriately
with his client, we conclude that he did not and could not have obtained her
informed consent to disclose her secrets.” To put it mildly, this contrived “heads
we win tails you lose” “Alice in Wonderland-like” construct, made without clear
and convincing evidence, is nonsensical. Even, hypothetically, if Mr. Klayman had
generally failed to communicate with Ms. Sataki (which is blatantly false and
unsupported by the record), the Board has no rational basis to use this as a blanket
and contrived excuse to manufacture ethical violations. In other words, it must
specifically analyze whether Mr. Klayman has communicated with Ms. Sataki in
this particular instance. And, the Board would be hard pressed to make the finding
that Mr. Klayman had failed to do so, when Ms. Sataki was personally handing out
copies of her “secrets” to strangers on Capitol Hill. This egregious error by the
Board was compounded by its turning a blind eye to and making a decision to not
allow onto the record the newly discovered video documentary uncovered in 2019
of Ms. Sataki herself publicizing her own case and related and underlying so called

45

App.0073

confidential “secrets.” It is abundantly clear that if Ms. Sataki is personally making
videos about her “secrets” and posting them online that they are not “secrets” at
all! Importantly, that the Board would not even grant Mr. Klayman’s request to
review the newly discovered video on a Persian television station which she made
explaining in detail own plight in order to decide whether to supplement the record
with extraordinary, compelling exculpatory newly discovered evidence puts the
nail in the coffin of the phony claim that Respondent himself revealed confidences.
Lastly, it is important to point out that ODC alleged a violation of Rule 8.4
for conduct involving dishonesty and/or misrepresentation under this claim, but
neither the Hearing Committee nor the Board found that Mr. Klayman had acted
dishonestly.
5.

Mr. Klayman Did Not Fail to Withdraw From
Representation

The finding by the Board that Mr. Klayman improperly failed to withdraw
from representation is, once again, completely unsupported by the record, much
less clear and convincing evidence. What the record does show, as set forth
previously, is Mr. Klayman did not take steps to litigate the BBG case further after
July 30, 2010 and only acted to preserve Ms. Sataki’s appellate rights. PFF 68.
And it was good that Mr. Klayman did so, because Ms. Sataki filed a notice of
appeal pro se later on down the road. PFF 67. The Board simply states that Mr.
Klayman “continued to file motions” without actually taking the time to look at the
46

App.0074

substance of what was filed. And, then years later Ms. Sataki – after she was
literally hunted down by ODC for ulterior reasons -- then asked ODC to prosecute
her sexual harassment claims! Tr. 489. Again, case closed!
Furthermore, letters purportedly terminating Mr. Klayman’s representation
were admittedly sent to the incorrect addresses, which Mr. Klayman never received
from her. PFF 71. Mr. Klayman also had a duty to confirm Ms. Sataki’s purported
“desires” in the August 4, 2010 letter, as it was clearly not written by her, PFF 70,
Tr. 1041, RX 21, before terminating all of Ms. Sataki’s rights on appeal.
Thus, the record does show that Mr. Klayman did not substantively litigate
any of Ms. Sataki’s cases after he was terminated, and acted only to preserve her
rights on appeal. This is competent, zealous representation, not ethical misconduct.
6.

Ms. Sataki’s Lack of Credibility Must Be Addressed

Glaringly absent from the Board’s Report is any discussion of Ms. Sataki’s ODC’s one material witness’s - credibility, or obvious lack thereof, as she was
definitively impeached numerous times at the hearing and on other occasions, not
the least of which is her blatantly false testimony that she did not want publicity for
her case, which is conclusively rebutted in the previous sections.
Mr. Klayman did not want to appear to be attacking Ms. Sataki personally,
and even addressed this with the Hearing Committee at the hearing, who assured
Mr. Klayman that he was entitled to vigorously defend himself:

47

App.0075

Mr. Klayman: So, you know, that's where I stand. I appreciate you're
going to allow me to give an aggressive defense, but I don't want to look
like the bad guy. I never have. And that's the quandary I'm in as being
Respondent, and my lawyer, and the witness, and I want to keep a good
demeanor, but -- and stay calm, but, you know, I'm outraged by some of
the things I heard and what has been done by Bar Counsel…..
Mr. Tigar: Well, I assume, Mr. Klayman, up here, the reason they have
lawyers decide these cases, as well as the hearing officers is, this is not
our first rodeo, and we have all been in cases in which public opinion
has been against us and in which we have faced this terrible problem of
cross-examining people who come on as sympathetic, such as in the
capital case, victim impact witnesses. So, we understand the situation
and I adopt the Chair's position. Nobody up here is opposed to the idea
of a vigorous, effective cross-examination in your exercising your rights,
and I think everybody up here can be trusted to disregard whatever
public attitudes may be circulating around out there, that may have led to
some perceptions. Tr. 231-233.
It appears, however, that he was sandbagged by Mr. Tigar and his very deferential
colleague, Hearing Committee Chairman Anthony Fitch. However, now more than
ever, given the extremely high stakes, Mr. Klayman must also bring to the Court’s
attention Ms. Sataki’s lack of credibility.
The record shows a history of making false allegations, as set forth in PFF
147-150:
Ms. Sataki filed a complaint in Los Angeles Superior Court against the
manager of the apartment, Dean Proper, and accused him of sexual
harassment of her friend Jessica who was staying in the apartment in the
second bedroom, as well as stealing Ms. Sataki’s diamond ring. Tr. 506512. RX 12. The Court ruled against her. Tr. 519.
Ms. Sataki falsely tries to justify the court’s judgment against her by
untruthfully claiming that the complaint was only meant to escape the
payment of rent for the apartment. Tr. 520.
48

App.0076

In fact, the truth is that the court documents show “Judgment was
entered, as stated below, on Day: 8/23/2011. Defendant does not owe
plaintiff any money on plaintiffs’ claim. And below it says contested. Tr.
521. RX 12.
Indeed, her claims of sexual harassment and workplace retaliation were also found
by the OCR to be outright false. See PFF 155 (“The final determination finds that
Ms. Sataki’s factual claims of sexual harassment and workplace retaliation were
not meritorious and thus false, as OCR had interviewed a number of witnesses. Tr.
635-640. RX 18.”).
Ms. Sataki’s claim that Mr. Klayman had “followed” her into the women’s
bathroom at the Luxe Hotel was also false. The record shows the following
testimony:
Q. The sentence here, "By the way, the Luxe Hotel, Hotel Luxe,
renamed the women's restroom in my honor. It's now called the Klayman
Room. I could now use it for client meetings." Is that a joke?
A. That was a joke, yes.
Q. Is that a joke because you had chased Ms. Sataki into the women's
room?
A. No, it's because she had ran into the women's room. I never went into
the women's room. I was trying to see that she was alright. And you
know, she was very emotional. She's been emotional before, and she's
been emotional here, and she was emotional with others. And I was
concerned about her. But I didn't go into the women's room. That was
just a joke. Tr. 1467-1468.
Unsurprisingly, the Hearing Committee and Board failed to mention much less
lend credence to Mr. Klayman’s testimony and simply again adopted Ms. Sataki’s
49

App.0077

false statements. This is an egregious error that shows, once again, at a minimum,
the record was not reviewed. Perhaps even more egregious is the possibility that
the record here was reviewed but simply ignored in order to strain to find ethical
violations, when no clear and convincing evidence was apparent and thus
forthcoming.
Ultimately, it would appear that Ms. Sataki had become influenced by her
felon cousin, Sam Razavi, who was convicted or gambling fraud in Las Vegas,
Nevada, BCSX 36, 37; Tr. 737-39. PFF 162, and was pressured into making a nonmeritorious complaint against Ms. Klayman. As set forth in Respondent’s PFF
136:
The idea of the supplemental complaint, BCX 23, came from Ms.
Staunton and her cousin Sam Razavi (“Mr. Razavi”). Tr. 468-469.
Neither of them are lawyers. Ms. Sataki admits that Ms. Staunton and
Mr. Razavi prepared the supplemental complaint. Tr. 469. Tr. 301, 307,
317, 468-72, 474-75, 544.
Mr. Razavi was the person who threatened Mr. Klayman and it was
discovered that he had pled guilty to and was convicted by the 2nd
District Court of the State of Nevada, Washoe County, for conspiracy to
commit fraudulent acts involving gaming. BCSX 36, 37; Tr. 737-39.
PFF 162.
Further instances of Ms. Sataki making false statements on the record
include, but are not limited to:
(1)
Lying about the involvement of Kathleen Staunton in the
preparation of the bar
complaint against Mr. Klayman. At the
hearing, she claimed under oath that Ms. Staunton helped her prepare the
complaint, along with Mr. Razavi. Tr. 469. Tr. 301, 307, 317, 468-72,
50

App.0078

474-75, 544. However, after the hearing, Mr. Klayman contacted
Congressman Dana Rohrabacher’s office, where Ms. Staunton worked,
and was told by the congressman’s chief of staff, Rick Dykema that Ms.
Staunton had no involvement in the preparation of the bar complaint,
and did not have any knowledge of it. App. 0125 - 0126.
(2) Lying about having her life ruined by Mr. Klayman, and
everything being “on hold” due to Mr. Klayman, when in fact, she has
been gainfully employed as a Persian broadcaster in Los Angeles
making $62,000 per year at Andisheh Television. Tr.565-589.
(3) Dishonesty and infidelity with and toward one of Ms. Sataki’s
four ex-husbands, who had filed a sworn affidavit in his divorce case
for having caught her having sex with another man in their apartment
just weeks after they were married. Tr. 377-382, PFF 123.
(4) Ms. Sataki also filed a complaint in Los Angeles Superior Court
against the wife of Zia Atabay, Attaby’s wife having accused Ms.
Sataki of having an affair with her husband who is the head of a
prominent Persian television network where Ms. Sataki then worked.
As a result, Mrs. Atabay was alleged to have keyed Ms. Sataki’s car.
However, Ms. Sataki also falsely testified that the court ruling proved
she was not having an affair with Zia Atabay, the owner of NITV. Tr.
525-526. The Chair, Mr. Fitch, acknowledged that Mr. Klayman’s
elicited testimony goes to Ms. Sataki’s overall credibility. Tr. 527528. PFF 150. Mr. Keya Dash testified under oath that there was such
an affair and it was widely known in the close knit Iranian
community. PFF 96-97. Tr.1342.
These examples all go strongly toward a finding that Ms. Sataki lacked
credibility, was prone to filing retaliatory and meritless complaints – including the
bar complaint against Mr. Klayman -- and was receiving bad advice from her felon
cousin, who had even threatened Mr. Klayman. PFF 162, Tr. 737-39. These should
have been considered by the Board in its Report, and its failure to do so was an
egregious error.
51

App.0079

Lastly, Mr. Klayman reiterates that he was always hesitant, as an accused
white male, about aggressively questioning Ms. Sataki, but was reassured by Mr.
Tigar and Mr. Fitch that it would not be held against him. However, as shown in
the Hearing Committee’s Report, Mr. Klayman was sandbagged by Messrs. Tigar
and Fitch over his strong cross examination of Ms. Sataki which destroyed her
credibility.
7.

The Hearing Committee and Board Exhibited Extreme Bias
and Prejudice Towards Mr. Klayman, Which Must Be
Remedied

Incredibly, one of the members of the Hearing Committee was Michael
Tigar, an avowed and proud communist, and someone who is the ideological foe of
Mr. Klayman, a staunch conservative and supporter of former President Trump.
App. 0078 - 0104. To make matters worse, the Chair Anthony Fitch, while leftist
but perhaps not a communist, appeared to be highly collegial with if not in awe of
Mr. Tiger and acted in a manner that was overly deferential to him throughout the
disciplinary process, looking to him repeatedly for “guidance.” To be perfectly
clear, Mr. Klayman’s Proposed Findings of Fact and Counter Findings of Fact,
App. 0045 - 0077, underscore the fact that the Board and the Hearing Committee
never thoroughly reviewed the record, although Mr. Klayman literally begged
them to do so.

52

App.0080

As set forth in detail below, the Board’s Report contained numerous
egregious errors that evidence a lack of attention and review of the record. To try
to set the record straight and prevent a manifest injustice, Mr. Klayman was forced
to file a Notice and Motion to Review Record Material Which Will Aid
Disposition, which was summarily denied – and a Motion for Reconsideration of
the Order of the Chair of the Board on Professional Responsibility and Motion to
Stay (the “Motion for Reconsideration”) with the Board, which included a rational
and legitimate request that the Board thoroughly conduct a bona fide review of the
entire record, which they tellingly refused to do. The Chairman Kaiser was notably
disingenuous in denying the motions with no real analysis, finding only “after the
fact” that Mr. Klayman’s motion was “moot” because he had filed his Notice of
Exceptions. Mr. Klayman had previously filed his Motion for Reconsideration
under an emergency basis and has asked the Board to stay proceedings until the
Motion for Reconsideration had been decided, but then Chairman Kaiser and the
Board did not act—and when it did passed the ball to this honorable Court,
shirking and ignoring its duties and responsibilities to correct a multitude of
material errors by undertaking a bona fide review process. Notably, Chairman
Kaiser waited until after the deadline for Mr. Klayman to file his Notice of
Exceptions to deny Respondent’s legitimate request, rather than issuing a stay as
would have been just.

53

App.0081

Given this refusal and failure to address the obvious clear errors, much less
lack of clear and convincing evidence, in the Board Report, Mr. Klayman is forced
to wonder if Chairman Kaiser and his Board, in addition to the Hearing
Committee, was biased against him due to their conflicting political beliefs and
advocacy.3 Regrettably, this type of prejudice is not unusual and is frequently
reality in today’s world of Washington, D.C., where extreme political polarization
has reached a critical mass. Mr. Klayman is a prominent conservative activist, a
pro-Trump supporter and public interest attorney, whereas, for instance, a
prominent member of the Hearing Committee Michael Tigar, and the Chair
Anthony Fitch to a slightly lesser extent, are the polar opposites who obviously
detest all that Mr. Klayman stands for and advocates in his public interest and
private legal capacity as founder of both Judicial Watch, Inc. and Freedom Watch,
Inc.

3

There is also a very apparent sentiment and approach of the D.C. Bar disciplinary
apparatus that the mere act of a Respondent defending himself and not throwing
him or herself on the “mercy of the Court” subjects the attorney to a greater
likelihood of being found “guilty” with heightened sanctions. This flies in the
face of the basic tenets of the American judicial system, and the Board’s own rules
which state that it is ODC’s duty to prove a violation by clear and convincing
evidence. The mere filing of a specification of charges by ODC is not in any way
evidence of ethical misconduct and a respondent who believes he did not act
unethically should not be punished for defending himself to the fullest extent of the
law. In short, if a respondent feels and can support with facts and the law, as is
true here, that he has done nothing unethical, he should not feel compelled to admit
guilt and in effect throw himself on the mercy of the Court.

54

App.0082

As for Mr. Tigar -- who a review of various transcripts during this proceeding
will show that he was held in awe and accorded great deference by Hearing
Committee Chair Anthony Fitch -- he remains a proud communist to this day, as
he recently penned renewed allegiance to Karl Marx in his latest book
“Mythologies of State and Monopoly Power, which is endorsed by none other
fellow renowned communist Angela Davis and convicted domestic terrorist
Bernadine Dorhn, to name just a few radical leftists. App. 0078 - 0104. As a young
lawyer, it is not in dispute that he was fired by former Justice William Brennan as
his clerk over this, as reported in the landmark book by famed Washington Post
investigative reporter and editor Bob Woodward. App. 0078 - 0104.
As for Chairman Kaiser, he is also an ideological foe4 of Mr. Klayman,
himself having written and had published articles in defense of Hillary Clinton's
"honesty," but to the contrary vilified President Donald Trump,5 who Mr. Klayman
has strongly supported. App. 0105 - 0118. Mr. Klayman's associate also uncovered
numerous political contributions on the Federal Election Commission website by
4

The Hearing Committee exhibited great vitriol towards Mr. Klayman based
simply on the fact that he had sued the Clintons in the past, but then
disingenuously reduced the 36 recommended suspension based on Mr. Klayman’s
public interest advocacy, which shows their incredible bias and attempt to make
themselves look “fair” when they were not. One at best can call this shameless
“chutzpah” of the highest magnitude.
5

https://abovethelaw.com/2016/08/hillary-clinton-truthfulness-and-bias-in-whitecollar-cases/; https://abovethelaw.com/2016/07/trump-and-tyranny/

55

App.0083

Chairman Kaiser to Hillary Clinton and Barack Obama – who Mr. Klayman had
sued in his public interest capacity at Judicial Watch and now Freedom Watch -and most recently presidential candidate Joe Biden who Chairman Kaiser also
contributed to, and a host of other leftist politicians.
While political contributions do not in and of themselves demonstrate bias,
they can be cumulative circumstantial evidence of it, along with other indicia. It is
clear that political beliefs should never influence Hearing Committee and Board in
matters of attorney discipline, but here it appears that they likely did -- given that a
deluge irrefutable facts on the record favor the “acquittal” of Mr. Klayman, but
were simply ignored and not even mentioned in the Hearing Committee
recommendation and Board Report. Interestingly, the highly leftist publication
that Chairman Kaiser writes for, in which he vilified President Trump but ran
interference for Hillary Clinton, “Above the Law,’ recently wrote and published
another article about Mr. Klayman, referring to him as a “nutbag” and suggested
that he be disbarred.6 The article asks and strongly suggest incredibly, “can we
quarantine [Mr. Klayman’s] law license?”, suggesting that Mr. Klayman be

6

Elizabeth Dye, Nutbag Lawyer Larry Klayman Files $20 Trillion Suit Against
China For Coronavirus ‘Bioweapon’, Above the Law, Mar. 19, 2020, available at:
https://abovethelaw.com/2020/03/nutbag-lawyer-larry-klayman-files-20-trillionsuit-against-china-for-coronavirus-bioweapon/

56

App.0084

removed from the practice of law, as has been the mission of ODC and apparently
Mr. Tigar and the Hearing Committee.
In short, to ignore these indicia of bias and prejudice is simply not reality in
today’s world.
II.

The Board’s Report Evidences the Fact that it Did Not Take the Time to
Review the Record
Upon reading the Board’s Report, it was immediately evident to Mr.

Klayman that the Board had failed to review and digest the record before issuing
its Report, and accordingly Mr. Klayman respectfully requests that this Court now
do so. In response, Kaiser disingenuously wrote:
In any case before the Board, it is duty bound to ‘review the findings
and recommendations of Hearing Committees submitted to the Board,
and to prepare and forward its own findings and recommendations,
together with the record of proceedings before the Hearing Committee
and the Board, to the Court.’ D.C. Bar. R. XI, section 4(e)(7). As
Respondent’s Motion plainly seeks to petition to the Board to do that
which it is mandated to do – and has done in the Board’s Report – it is
denied as moot. App. 0123 - 0124.
This statement by Kaiser evades a direct response to Mr. Klayman’s
legitimate request in two respects. First, he simply states that the Board did what
“it is mandated to do,” and then second says that this is reflected in the Board’s
Report. However, the problem with this non-response is that it the Board Report
itself ignores Respondent’s post hearing briefs and proposed findings which cite
the actual record, and thus crucial and material uncontroverted facts, and reflects

57

App.0085

that it simply adopted wholesale what was contained in the politically tainted and
biased Committee recommendation. In short, the Board Report shows no evidence
that the Board did as “it is mandated to do.”
Conspicuously, the Board Report does not refer to a single witness’s hearing
testimony and related exhibits, seven (7) of whom testified for Mr. Klayman,
refuting Ms. Sataki’s allegations. Nor does it reflect her many admissions and
impeached testimony.
To be absolutely clear, the hearing testimony of Ms. Sataki herself, if it had
been reviewed, shows that she made many admissions in Mr. Klayman’s favor and
was impeached on numerous occasions on the truthfulness of her testimony, as set
forth above. This too is detailed with great specificity in Respondent’s proposed
findings, all backed up with record cites to hearing testimony and supporting
exhibits. App. 0045 – 0066. To be frank, it is as if the Board’s Report was written
with a “do no evil, hear no evil and see no evil” predetermined mindset.
For example, at page 2 of the Board’s Report which it appears was penned in
whole or in large part by Chairman Kaiser since it dovetails and comports with his
denial of Respondent’s motions - which he gave short shrift and punted to this
Court - he states:
The Hearing Committee issued a lengthy, detailed and thoughtful
report that determined that Respondent had violated a number of
Rules of Professional Conduct by failing to effectively communicate
with his client and to follow her instructions about the objectives of
58

App.0086

the representation, representing her under a conflict of interest, and
breaching his duties of confidentiality to her, among other Rule
violations. But consent requires effective communication; here
because Respondent was unable to effectively communicate with his
client, he was unable to effectively obtain her consent.
For that reason, and as set out below, we agree that Respondent
violated Rules 1.2(a), 1.4(b), 1.5(c), 1.6(a)(1), 1.6 (a)(3), 1.7(b)(4),
and 1.16 (a)(3). We recommend a sanction of an 18-month suspension
with a requirement that he demonstrate a fitness to practice law before
he is reinstated.
In adopting the virtually the entire Committee recommendation, with effusive and
gushing praise for their “thoughtfulness,” save for a brief mention of Professor
Ronald Rotunda, a respected and renowned legal ethics expert, who had found that
Mr. Klayman had not violated any of the above listed ethical rules but could not
testify at the hearing since he had died during the unconscionable eight (8) year
interim period after Ms. Sataki had filed her bar complaint, the Board’s Report
makes no mention of any of Mr. Klayman’s material witnesses. App 0001 - 0034.
These witnesses who refute Ms. Sataki’s testimony and show her to be untruthful
as a result of likely being coached by a hostile ODC whose admitted mission is to
remove Mr. Klayman, no holds barred, from the practice of law, include Timothy
Shamble, Keya Dash, Gloria Allred, the Honorable Stanley Sporkin (who also
gave Mr. Klayman a strong character reference, Ashley Klayman and importantly,
Mr. Klayman himself.

59

App.0087

The testimony and documentary exhibits that relate to Timothy Shamble,
Ms. Sataki’s union president, who was intimately involved as in effect Mr.
Klayman’s partner in representing her, are particularly material and probative of
the fact that there was full disclosure and informed consent for Mr. Klayman’s and
Mr. Shamble’s recommended course of action in first attempting to settle Ms.
Sataki’s sexual harassment and workplace retaliation claims with Voice of
America (“VOA”) and then Mr. Klayman undertaking litigation on her behalf. PFF
#20, Tr. 890. Mr. Shamble’s testimony and related documentary evidence is set
forth in detail in Respondent’s proposed findings as identified above, yet no
mention at all is made of him in the Board’s Report, underscoring that the Board
took the Committee’s recommendation, which hinged solely on Ms. Sataki’s
contrived, false and vindictive testimony, hook, line and sinker, without doing a
thorough and complete review of the record. It is this incorrectly claimed lack of
communication and consent by Ms. Sataki, which Mr. Shamble and other witness
testimony and related exhibits convincingly refute, upon which the Board’s Report
primarily hinges, itself misleadingly results in the Board “finding” a cavalcade of
alleged rule violations by Mr. Klayman.
Mr. Shamble, as his testimony and documentary exhibits also establish and
prove, was privy to the inability of even he, Ms. Sataki’s union representative as
head of the union at VOA, being able to communicate with Ms. Sataki over her

60

App.0088

erratic and incomprehensible communications, made by persons who appeared not
to be her, to no longer purse her claims versus VOA. PFF #4, RX 1, RX 5. Like
Mr. Klayman Mr. Shamble sought to keep Ms. Sataki’s claims alive until he and
Mr. Klayman could personally communicate with her and confirm what she
desired to do.
In addition, as just one other example of the obvious fact that a thorough and
complete review of the record was not conducted, was the testimony of Gloria
Allred, the premier litigator of sexual harassment claims by abused women. The
testimony of Ms. Allred, supporting Mr. Klayman’s testimony, showed that when
Mr. Klayman saw that there was a potential conflict of interest over his feelings for
Ms. Sataki and her manipulative “diva request” that he buy her a car, as she was
attempting to take advantage of these feelings, that he sought to refer her to Ms.
Allred. But Ms. Sataki herself wanted Mr. Klayman to remain as her counsel. PFF#
172 – 177.
When ultimately Ms. Sataki did not, for whatever reason, get the result she
wanted, she struck back at Mr. Klayman, sending him the below email, which was
entered into evidence but never even mentioned in the Board’s Report. This email
underscores the verbal and other abuse Mr. Klayman had experienced with Ms.
Sataki throughout and explains the basis for many of his communications with her,
since as a human being with feelings for her, he felt hurt. Ms. Sataki wrote:

61

App.0089

I do not know if you are Christian or Jewish, because whichever suits
you best, you become one. But I believe in karma and what you have
done with my case and losing it.” Ms. Sataki also wrote: “And what
you have done with my case and losing it and not stopping working
on it when I ordered you, one day you’ll answer to God, even if you
throw your life and play with people life. I am nobody, just a little girl
who was retaliated and harassment by some VOA employee and you
seed (sic) that you can help me. Not only did you not help me, but
destroyed my life to nothing….
Mr. Klayman are you happy now that you’ve completely destroyed
and lost my case? A case with so many evidence and witnesses. Only
a very bad and clueless attorney could lose it, or lost it on purps (sic)
because you made a dill (sic), with the other party. PFF #163, BCSX
38.
If the Board had conducted a thorough and complete review of the record,
with the aid of Respondent’s proposed findings of fact and post-hearing brief –
which in great detail provided records cites for verification -- they would have
seen that the alleged communication problems were not his primary doing. But in
any event, when he saw that continued representation had become virtually
impossible, he referred Ms. Sataki to Ms. Allred and another lawyer who handles
VOA cases, Mr. Tim Shea. PFF # 36.
Despite this, it is Mr. Klayman who is vilified by both the Committee and
now the Board’s Report, with a career ending recommended sanction, since Mr.
Klayman is now almost 70 years old, as the Board has recommended a
reinstatement requirement which is tantamount to disbarment given the time it
takes to litigate this.

62

App.0090

Under these extraordinary circumstances, Chairman Kaiser and his Board
were required, as is inherent and part and parcel to their own “professional
responsibility,” to undertake a thorough and complete review of the record,
particularly given the inherent bias and prejudice of the Hearing Committee.
CONCLUSION
As shown conclusively above, the bias and prejudice against Mr. Klayman,
the due process, equal protection and Sixth Amendment violations, and the simple
lack of clear and convincing evidence of any misconduct can support only one
course of action by this Court – dismissal of this complaint in its entirety against
Mr. Klayman. However, in the alternative, at a minimum, this matter must be
remanded to a hearing before another Ad Hoc Hearing Committee not led by
Messrs. Fitch and Tigar, Esq., so that Mr. Klayman will have a chance at a fair and
unbiased proceeding. Furthermore, the Court must order an internal review to
determine why and how a communist and another deferential ultra-leftist came to
sit on the Hearing Committee charged with judging Mr. Klayman, a conservative
public interest and pro-Trump advocate, as well as why the Board did not take any
time to digest and review the record before issuing its Report, which it is mandated
to do as part of its duties and professional responsibility. The Board cannot simply
be allowed to ignore the record in order to create whatever finding and sanction
which, for whatever reason, it desires.

63

App.0091

Mr. Klayman had been a member continuously in good standing for several
decades, and the hard work which gave rise to his undergraduate and juris doctor
degrees and later law license, as well as subsequently

his distinguished and

successful legal career for now almost forty-four (44) years as a public interest
advocate and private practitioner, should not and cannot be cavalierly taken away
for political reasons, with regard to a bogus bar complaint and proceeding that are
now about eleven (11) years old, and counting, App. 0677 (Klayman Biography).
This is most particularly so when identical complaints had already been dismissed
by two respected state bars, Florida and Pennsylvania, about nine (9) years ago.
Dated: February 8, 2021

Respectfully submitted,
/s/ Melissa Isaak________
Melissa Isaak, Esq.
2815-B Zelda Road
Montgomery, AL 36106
Tel: 334-262-8200
Melissa@protectingmen.com
Counsel for Respondent
/s/ Larry Klayman________
Larry Klayman
7050 W. Palmetto Park Road
Boca Raton, FL, 33433
Tel: 561-558-5336
leklayman@gmail.com
Co-Counsel Pro Se

64

App.0092

Case 1:20-cv-01014-LY Document 1 Filed 10/02/20 Page 22 of 95

Page 806

Page 808

Page 807

Page 809

42 (Pages 806 to 809)

App.0093

Case 1:20-cv-01014-LY Document 1 Filed 10/02/20 Page 23 of 95
In Re: Larry E. Klayman
July 18, 2019
Page 770

Page 772

1

ask the court to sanction him, and it's very rare for

1

And even his claim, which disciplinary

2

a court to do it sua sponte, but that does not mean

2

counsel doesn't claim was illegitimate or wasn't made

3

that the statements that he made to the court were

3

in good faith, that Mr. Bundy should have been given,

4

not false as the court found, including the 9th

4

you know, his right to counsel of choice

5

Circuit, or that these claims that he made against

5

notwithstanding the disciplinary matters. That's a

6

Judge Navarro, Judge Bybee and others had any merit

6

legitimate argument, but it's not okay to raise it

7

-- they didn't.

7

in at least 15 -- at least 15 separate pleadings,

8

over and over and over again, which he did, and I can
cite to all of them in our post-hearing brief.

No reasonable lawyer could think that the

8
9

claims that he made against Judge Navarro and later

9

10

Judge Bybee had any merit or any chance of success.

10

11

You know, and again legally they were without basis

11

clearly and convincingly that Mr. Klayman engaged in

12

-- judges are absolutely immune, so are Presidents.

12

misconduct. And I confirmed that the record of the

13

pre-hearing motions and -- which include the

The allegations of this vast conspiracy

13

So, I think the evidence shows both

14

between Judge Navarro and others -- as Judge Navarro

14

disciplinary complaints that Mr. Klayman filed

15

found, displayed a lack of respect for the judiciary

15

against disciplinary counsel, are already part of the

16

and a complete lack of ignorance of the independent

16

record.

17

jury. And as the 9th Circuit found, they were for

17

18

intimidation and retaliation because she had denied

18

confirms that he should not continue to have the

19

his pro hac vice.

19

privilege of being a lawyer because he cannot conform

20

himself to the ethical rules.

And I'll get finally to the last issue and

20
21

that is kind of the repetitive nature of the claims.

21

22

Yes, in some of the petitions Mr. Klayman said they

22

And I'd say his conduct in this proceeding

CHAIRPERSON MIMS: Before you step down, I
don't know if anyone else has any questions. I do

Page 771

Page 773

1

were changed circumstances, but if you go back and

1

have one question and maybe you've answered it, but I

2

look at the second 9th Circuit decision denying his

2

want to be sure I'm clear. Under Rule 8.1, which is

3

second petition, which I believe is 79, you'll see

3

one, it's in the specification of charges and you've

4

that those changed circumstances -- the IG's report,

4

discussed a little bit. Rule 8.1 is, you say, "In

5

or alleged government misconduct.

5

his application and supplemental application for

6

admission to the District Court, Respondent

They had nothing to do with whether or not

6
7

the pro hac vice application should have been granted

7

knowingly made false statements of fact or material

8

or that Judge Navarro had a basis to deny it. And

8

fact, and he failed to disclose a fact necessary to

9

indeed, these claims have changed circumstances for

9

correct a misapprehension known by the applicant."

10

procedural, completely inappropriate because they

10

11

were being raised for the first time on appeal. But

11

12

it was the -- it wasn't just these changed

12

13

circumstances, but a lot of the allegations that

13

it with Judge Navarro understanding what was going on

14

I've already gone over -- that Mr. Whipple was

14

with respect to the disciplinary proceedings and also

15

threatened with contempt, that Mr. Bundy was ordered

15

with respect to the two judges who had banned him and

16

in solitary confinement.

16

kind of the basis for that decision, and everything

17

else.

That Mr. Klayman had been completely

17
18

honest on his pro hac vice, that Judge Bybee lacked

18

19

appreciation and sensitivity because his prior

19

20

rulings or involvement in the drafting of a memo.

20

21

These were repeated, sometimes verbatim, over and

21

22

over and over again.

22

I just want to be clear on what that
misapprehension is that you're referring to?
A

Well, and I think I've kind of gone over

CHAIRPERSON MIMS: Alright, alright, thank
you.
MR. KLAYMAN: May I take two minutes and
go to the restroom?
CHAIRPERSON MIMS: Yes, sure. Let's go

33 (Pages 770 to 773)
202-347-3700

Ace-Federal Reporters, Inc.

866-928-6509

App.0094

The Florida Bar
651 East Jefferson Street
Tallahassee, FL 32399-2300
Joshua E. Doyle
Executive Director

850/561-5600
www.FLORIDABAR.org

State of Florida

)

County of Leon

)

In Re: 0246220
Larry Elliot Klayman
Klayman Law Group, PA
2020 Pennsylvania Ave NW # 345
Washington, DC 20006-1811

I CERTIFY THE FOLLOWING:
I am the custodian of membership records of The Florida Bar.
Membership records of The Florida Bar indicate that The Florida Bar member listed above was admitted to
practice law in the state of Florida on December 7, 1977.
The Florida Bar member above is an active member in good standing of The Florida Bar who is eligible to
practice law in the state of Florida.
Dated this 15th day of June, 2021.

Cynthia B. Jackson, CFO
Administration Division
The Florida Bar
PG:R10
CTM-138817

App.0095

